l?Nb._

x0 IN THE

SUPREME COURT OF THE UNITED STATES

MACHIAVELLI FARRAKHAN SIBERIUS
Plaintiff - Petitioner.,
v.

AMERICAN PUBLIC UNIVERSITY SYSTEM, INC.; PRESSLEY RIDGE;
WEST VIRGINIA DEPARTMENT OF EDUCATION, et al.
Defendants - Respondents,

On, Petition for Writ of Certiorari to the
United States Court of Appeals for the Fourth Circuit

FEB 2 5 2021
OFFICE OF THE CLERK
Ql IPRFME COURT, U.S,_

PETITION FOR WRIT OF CERTIORARI

Machiavelli Farrakhan Siberius
P.O.Box 1162
Parkersburg, WV 26102
Telephone: (304) 210-6097
MFSiberius@hotmail.com
April 2, 2021

Machiavelli Farrakhan Siberius,
Pro Se

QUESTIONS PRESENTED
1. The United States Court of Appeals for the Fourth Circuit has entered a decision in
conflict with the decision of another United States court of appeals on the same
important matter, such as Schumann v. Collier Anesthesia, P.A., Case No: 2:12-cv347-FtM-29CM (M.D. Fla. Oct. 27, 2016) and disagreed with a historical case of the
Fourth Circuit, Reich v. Shiloh True Light Church of Christ, 895 F.Supp. 799, 819
(W.D.N.C. 1995). “At what point does a student become an ‘employee’ for an
employer, due to the various types of abuses and exploitation of a free labor system,
in an education program?”
2. The District Judge had considered a federal question in a way that conflicts with
other federal district decisions, like Winfield v. Babylon Beauty Sch. of Smithtown
Inc., 89 F. Supp. 3d 556 (E.D.N.Y. 2015) and Marshall v. Baptist Hospital, Inc., 473
F. Supp. 465 (M.D. Tenn. 1979), and further conflicts with the “FLSA” 29 U.S. Code
§ 213(a)(1), 29 CFR § 541.303(c), 29 CFR § 541.602(1); and this conflict transitions to
state laws, such as California Education Code, Section 44462, and W.Va. Code §18A3-2, and this further moves into a parallel to modern violations of the Thirteenth
Amendment by not defining “an employer employee relationship between the
plaintiff and either Pressley Ridge or the WVDE.” Should student-teachers and
teacher candidates be denied payment under all circumstances, denied employee
status at a school, due to student status at a separate school or university?
3. Was the Fourteenth Amendment “Due Process Clause,” “Equal Protection Clause,”
and Article 1, Section 10, Clause 1 of the U.S. Constitution breached by the
defendants, in the fashion that Mr. Siberius was terminated from a student-teaching
position at Pressley Ridge at White Oak, for reporting child abuse, in accordance
with state laws, contracts, freedom of speech, and scope of duty as a studentteacher?
4. In accordance with Fed.Rule Civ.Proc. 25(d) and Fed.Rule App.Proc. 43 and
Robinson v. Integrative Detention Health Services, No. 3:12-CV-20, (M.D. Ga. Mar.
28, 2014), Burton v. Wilmington Parking Authority, 365 U.S. 715 (1961): can a
corporation headquartered in Pittsburgh, Pennsylvania be responsible for acting
“under color of law” in the State of West Virginia?
5. A state agency waived its Eleventh Amendment “immunity” by voluntarily
appearing in federal court. In Hafer v. Melo et al., 502 U.S. 21, 112 S. Ct. 358 (1991)
the Court held that state officials “acting in their official capacities” are outside the
class of “persons” subject to liability under § 1983 was reversed, and in Biggs v.
Meadows, 66 F.3d 56 (4th Cir. 1995) that specifies the importance of the substance
of a complaint rather than the named individuals, to sue individuals in official
capacity and individual capacity, leaving the Courts to decide. See Kentucky v.
Graham, 473 U.S. 159, 165-166 (1985). To what extent has the Courts erred in
applying Will v. Michigan Dept, of State Police, 491 U.S. 58, 71 (1989), given other
ruhngs, and the specific context of the plaintiffs circumstance for civil action?
6. Can a school board be sued under 42 U.S.C. § 1983?

PARTIES TO THE PROCEEDING
AND RELATED CASES
1)

Machiavelli Farrakhan Siberius, plaintiff and petitioner;

2)

Machiavelli Farrakhan Siberius, I, plaintiff and petitioner;

3)

American Public University System, Inc., defendant and respondent;

4)

Pressley Ridge, defendant and respondent;

5)

West Virginia Department of Education, defendant and respondent;

6)

American Military University & American Public University Systems, defendant
and respondent.

Related cases to this proceeding are:
•

Machiavelli Farrakhan Siberius v. American Military University & American Public
University Systems, Pressley Ridge, and West Virginia Department of Education, No.
18-C-153, Circuit Court of Wood County, West Virginia. Order staying proceeding
pending appeal, entered Jan. 09, 2020..

•

Machiavelli Farrakhan Siberius v. American Public University System, Inc., Pressley
Ridge, and West Virginia Department of Education. No. 2:18-cv-01125, U.S. District
Court for the Southern District of West Virginia, at Charleston. Judgement entered
Sept. 13, 2019.

•

Machiavelli Farrakhan Siberius, I, v. American Public University System, Inc.,
Pressley Ridge, and West Virginia Department of Education. No. 19-7400, U.S. Court
of Appeals for the Fourth Circuit. Judgement affirmed May 06, 2020.

•

Machiavelli Farrakhan Siberius, I, v. American Public University System, Inc.,
Pressley Ridge, and West Virginia Department of Education. No. 19-7400, U.S. Court

ii

of Appeals for the Fourth Circuit. A rehearing and rehearing en banc denied Sept.
29, 2020.

Ill

TABLE OF CONTENTS
QUESTIONS PRESENTED

1

LIST OF PARTIES

.11

RELATED CASES TO PROCEEDING

,n

TABLE OF CONTENTS.

IV

TABLE OF AUTHORITIES

Vll

PETITION FOR A WRIT OF CERTIORARI.

1

OPINION AND ORDER BELOW

1

JURISDICTION

1

CONSTITUTIONAL PROVISIONS, STATUTES
AND POLICIES AT ISSUE

2

STATEMENT OF THE CASE
A. Relevant Case History to FLSA & 1983

.4

ARGUMENT
I. Fair Labor Standards Act
A. Using Students as Employees and Students
Transitioning into Employee Status
B. The Good Faith Reliance and Abuses of Internship Programs

9
12

C. The Defendant Not Record Keeping
for a Student in the Workplace

15

D. The District Judge’s Faulty Misplacement of Displacement
for Unlicensed Teachers

16

E. An Infringement Upon the Thirteenth Amendment
to the U.S. Constitution.

18

iv

II. 42 U.S. Code § 1983
A. Corporation’s Official and A Corporation Can Act “Under Color of State Law,” In
A State Separate from Its Headquarters. A Corporation Can Be the Citizen of
Several States

19

Memorandum of Law

.21

B. A “Person” Can Be A Municipality Under Section 1983, A School Board Can Be
Sued Under Section 1983, and Various Capacities Sued Under 42 U.S.C. Section
1983

23

Memorandum of Law

.25

C. The Waiver of Eleventh Amendment Immunity,
D. The Defendants Acted ‘Under Color of Law”.

27
..28

E. The First Amendment Eight, “Freedom of Speech” Was Infringed Upon.

33

F. The Fourteenth Amendment Due Process Clause
Was Violated by Defendants.

.34

G. Defendants Violated Equal Protection Clause; Abridging Privileges
And Immunities

37

H. U.S. Constitution, Article 1, Section 10, Clause 1 Was Violated by
Defendants

38

CONCLUSION

40

v

(

INDEX TO APPENDICES
Appendix A

September 13, 2019, Memorandum
Opinion and Order. United States
District Court for the Southern District
of West Virginia, Charleston Division.

Appendix B

January 09, 2020, Mandate. Circuit
Court of Wood County, West Virginia.

Appendix C

May 06, 2020, Affirmed Opinion. United
States Court of Appeals for the Fourth
Circuit.

Appendix D

September 29, 2020, Order, Rehearing
Denied. United States Court of Appeals
for the Fourth Circuit.

Appendix E

October 14, 2020, Mandate. United
States Court of Appeals for the Fourth
Circuit.

vi

TABLE OF AUTHORITIES
Cases
Abbariao v. Hamline Univ. Sch. of Law.,
258 N.W.2d 108 (Minn. 1977)

39

Adickes v. S.H. Kress & Co, 398 U.S. 144,
150-152 (2nd Cir. 1970)

.21, 28

Allgeyer v. Louisiana, 165 U.S. 578 (1897)

39-40

Bd. of the Cnty. Comm’rs v. Brown, 520 U.S. 397 (1997)

.29

Biggs v. Meadows, 66 F.3d 56 (4th Cir. 1995)

.26

Bleicher v. University of Cincinnati College of Med.
604 N.E.2d 783 (Ohio Ct. App. 1992)

39

Blum v. Yaretsky, 457 U.S. 991,102 S. Ct. 2777 (1982)

.22

Board of Curators, Univ. of Mo. v. Horowitz,
435 U. S. 78, 91-92 (1978)

.2

Board of Regents v. Roth, 408 U.S. 564,
92 S.Ct. 2701, 33 L.Ed.2d 548 (1972)

36

Brandon v. Holt, 469 U.S. 464, 105 S. Ct. 873 (1985)

26

Bryant v. Chicago Board of Education,
Ol-C-7895 (N.D. Ill. Apr. 19, 2002)

.28
('

Burke v. Mesta Machine Co., 79 F. Supp. 588,
611 (W.D.Pa.1948)

13

Burton v. Wilmington Parking Authority, 365 U.S. 715 (1961)

21-23

Burruss v. B.M.C. Logging Co., 38 N.M.
254, 257, 31 P.2d 263, 264 (1934)

18

vii

Byrd v. Brishke, 466 F.2d 6, 10 (7th Cir. 1972)

37

Carter v. Dutchess Community College, 735 F.2d 8,
12 (2d Cir.1984).

11-12

Carol J. White vs. Department of Education,
CC-93-82 (W.Va. July 12, 1993)

.24

Carver v. Sheriff of Lasalle County, Illinois,
324 F.3d 947 (7th €ir. 2003)

.25

City of Canton v. Harris, 489 U.S. 378 (1989)

29

Clackamas Gastroenterology Associates, P. C. v. Wells,

538 U.S. 440 (2003)

5

Conner v. Reinhard, 847 F.2d 384 (7th Cir. 1988)

26

Corfield v. Coryell, 6 Fed. Cas. 546
(No. 3,230)(C.C.E.D.Pa., 1823)

38

Corso v. Creighton Univ., 731 F.2d 529 (8th Cir. 1984)

39

Doherty v. Southern College of Optometry,
862 F.2d 570 (6th Cir. 1988)

39

Estelle v. Gamble, 429 U.S. 97 (1976)

23

Fletcher v. Peck. 10 U.S. (6 Cr) 87 (1810)

39

Garrison v. Thomas Memorial Hosp. W.Va. Supr. Court,
Case. 90-C-2795. (1993).

32-33, 36

Glatt et al. v. Fox Searchlight Pictures, Inc. et al., Nos.
13-4478-cv; 13-4481-cv (2nd Cir. 2016)

9, 11, 14, 16

Goldberg v. Kelly, 397 U.S. 254,
90 S.Ct. 1011, 25 L.Ed.2d 287 (1970)

36

VUl

Goss v. Lopez, 419 U.S. 565 (1975)

35

Gray v. Dane County, 854 F.2d 179, 183 (7th Cir.1988)

28

Gregory v. Chehi, 843 F.2d 111, 119-20 (3d Cir. 1988)

26

Hafer v. Melo et al., 502 U.S. 21,112 S. Ct. 358 (1991)

25-27

Hall v. Marion School Dist. No. 2,
33-34

860 F. Supp. 278 (D.S.C. 1993)
Harger v. Structural Services, Inc. 916 P.2d
1324 (1996) 121 N.M. 657.

18

Hill v. Shelander, 924 F.2d 1370, 1374 (7th Cir. 1991)

.26

Hunter v. County of Sacramento, 652 F.3d 1225 (9th Cir. 2011)

29

Irizarry v. Catsimatidis, 722 F.3d 99 (2d Cir. 2013)

12

Jones v. City of Chicago, 781 F.2d 200, 204 (7th Cir. 1986)

.28-29

Kam Koon Wan v. E. E. Black, Ltd., 188 F.2d 558, 562 (9th Cir.),
cert, denied, 342 U.S. 826, 72 S. Ct. 49, 96 L. Ed. 625 (1951)....12
Kentucky v. Graham, 473 U.S. 159, 165-166 (1985)

26-27

Keyishian v. Board of Regents, 385 U.S. 589,
385 U.S. 605-606 (1967)

33

Kotch v. Board of River Port Pilot Comm'rs, 330 U.S. 552 (1947)...... 38
Lamaster v. Ind. Dep’t of Child Servs.,
4:18-CV-00029-RLY-DML (S.D. Ind. Mar. 20, 2019)

37

Lane v. Carolina Beauty Sys., Inc., No. 6:90-cv-00108,
1992 WL 228868, *4 (M.D.N.C. July 2, 1992)
Larsen v. City of Beloit, No. 97-1831 (7th Cir. 1997).
Lehigh Valley Coal Co. v. Yensavage, 218 F. 547,

IX

4
35-36

552-53 (2d Cir. 1914)

17-18

Limes-Miller v. City of Chicago, 773 F. Supp. 1130 (N.D. I1L 1991). ...28-29
Lisa Kerr v. Gene Brett Kune, et al., No. 15-1473.

A, 6, 7, 9

Lochner v. New York, 198 U.S. 45 (1905).

40

Mahavongsanan v. Hall, 529 F.2d 448 (5th Cir. 1976)

39

Marshall v. Baptist Hospital, Inc.,
473 F. Supp. 465 (M.D. Tenn. 1979)

.8, 10, 12, 14-15

Monell v. Dept. ofSoc. Servs., 436 U.S. 658, 690-691, 98
S. Ct. 2018, 2035-36, 56 L. Ed. 2d 611, 635 (1978)

1, 25, 27-29

Monroe v. Pape, 365 U.S. 167 (1961)

.29

Moose Lodge No. 107 v. Irvis, 407 U.S. 163 (1972)

.23

Nix v. Norman, 879 F.2d 429 (8th Cir. 1989)

34

Oviatt by and Through Waugh v. Pearce,
954 F.2d 1470 (9th Cir. 1992)

.29

Paige v. Coyner, No. 09-3287 (6th Cir. 2010)

.22, 28

Pembaur v. City of Cincinnati, 475 U.S. (1986).

.34

Petru v. City of Berwyn, 872 F.2d 1359, 1361 (7th Cir. 1989)

36

Pickering v. Board of Education, 391 U.S. 563 (1968)

33

Plyler v. Doe, 457 U.S. 202 (1982)

38

Powell v. United States Cartridge Co.,
339 U.S. 497 (1950)

10

Price v. Akaka, 928 F.2d 824, 915 F.2d 469 (9th Cir. 1990)

26

Pride v. Does, 997 F.2d 712, 715 (10th Cir. 1993)

.26

Reich v. Shiloh True Light Church of Christ,

x

8, 10, 11, 15, 17

895 F.Supp. 799, 819 (W.D.N.C. 1995)
Robinson v. Integrative Detention Health Services,
No. 3:12-CV-20, (M.D. Ga. Mar. 28, 2014)

.21

Ross v. Creighton Univ., 957 F.2d 410 (7th Cir. 1992)

39

Saenz v. Roe, 526 U.S. 489 (1999)

38

Sanders v. St. Louis, 724 F.2d 665, 667 (8th Cir. 1983)

34

Scheuer v. Rhodes, 416 U.S. 232 (1974)

.27

Schumann v. Collier Anesthesia, PJL ,
803 F.3d 1199 (11th Cir. 2015)

8-14

Screws v. United States, 325 U.S. 91 (1945)

.29

Shabazz v. Coughlin, 852 F.2d 697, 700 (2d Cir. 1988).

.26

Skidmore v. Swift & Co., 323 U. S. 134, 140 (1944)

5

Slaughterhouse Cases, 83 U.S. 36 (1872)

38

Solis v. LaurelbrOok Sanitarium and School,
642 F.3d 518 (6th Cir. 2011)

10

Spicer v. Williamson, 191 N.C. 487, 490, 132 S.E. 291, 293 (1926)........23
Tinker v. Des Moines Independent Community School District,
393 U.S. 503 (1969)

.33

Trustees of Dartmouth Coll. v. Woodward,
17 U.S. 4 Wheat. 518 518 (1819)

,40

United States, Appellant, v. Cecil Ray Price, et al.
383 U.S. 787, 86 S.CT. 1152 (1966)

.22

United States v. Classic, 313 U.S. 299, 326, 61 S.Ct. 1031,
1043, 85 L.EdL 1368 (1941)

29

xi

University of Mississippi Medical Center v. Hughes,
765 So.2d 528 (Miss. 2000)

39

University of Texas Health Science Ctr. at Houston v. Babb,
646 S.W.2d 502 (Tex. Ct. App. 1982)

39

Walling v. Portland Terminal Co., 330 U.S. 148, 152,
67 S. Ct. 639, 641, 91 L. Ed. 809 (1947)

.4, 10, 11

Wells v. Brown, 891 F.2d 591 (6th Cir. 1989)

.28

West v. Atkins, 487 U.S. 42 (1988)

23

White v. Rochford, 592 F.2d 381, 383 (7th Cir. 1979)

.37

Will v. Michigan Dept, of State Police, 491 U.S. 58, 71 (1989),

.23-28

Windle v. City of Marion, Ind., 321 F.3d 658, 662 (7th Cir. 2003)

37

Winfield v. Babylon Beauty Sch. of Smithtown Inc.,
89 F. Supp. 3d 556 (E.D.N.Y. 2015)

.8-12, 15, 17

Yarg v. Hardin, No. 93-2934, 37F.3D, 282 (7th Cir. 1994)

,37

Zinermon v. Burch, 494U.S. 113,139, 110 S. Ct. 975,
990, 108 L. Ed. 2d 100, 122 (1990)

36

Statutes
29 CFR § 516.30

15

29 CFR § 541.303(c)

2, 4, 17

29 CFR § 541.602(1)....

3, 4, 7

20 USC § 1011a.

3, 33

28 USC § 1331

1, 27

28 USC § 1332(c)(1).

19

28 USC § 1367(a)

1

xii

28 USC § 1369(c)(2).

19, 20

28 USC § 1391(d),(g)

19, 20

28 USC § 1441

1, 27

28 USC § 1446

1, 27

29 USC § 203(g)

11

29 USC § 211(a)

15

29 USC § 213(a)(1)

.passim

29 USC § 259

12, 14

42 USC § 1983

.passim

Court Rules
Fed R. Civ.Proc. 25(d)(1)

.21, 27

Fed. R. App. P. 35(b).

8

Fed. R. App, P. 43(c)(1)

21, 27

Supreme Court, COVID-19 (Order List: 589 U.S.)

1

State Code
California Education Code, Section 44462

18

North Carolina General Statutes § 115C-269.30(c)

18

W.Va. § 126CSR162 Sec. 3

12, 39

W.Va. Code § 14-2-25

24

W.Va. Code § 18-5-5

.24, 25

W.Va. Code § 18A-2-2

34

W.Va. Code § 18A-2-7

34

W.Va. Code § 18A-2-8

.34-35

W.Va. Code § 18A-3-l(g)(2)(B)(ii).

.8, 33

W.Va. Code § 18A-3-2

4, 6, 16
xiii

W.Va. Code § 18B-1-4

.22, 24

W.Va. Code § 49-2-803

.8, 12, 33

W.Va. Code § 49-6-109

8, 12, 33

W.Va. Code § 49-6A-2

12

W. Va. Code, § 55-2-12 [1959]

33

W.Va. Code § 55-7E-2

12

Constitution of the United States
.2, 38

Article 1, Section 10, Clause 1

2, 8, 33-34

First Amendment.
Fourth Amendment,

37

Eighth Amendment.

.23

Eleventh Amendment.

27-28

Thirteenth Amendment, Section 1

.2, 18-19

Fourteenth Amendment, Section 1

passim

Other Authorities
Alexander Hamilton, Pamphlet 1796.

39

Arthur Larson, Larson's Workers' Compensation Law,
Vol. 1A, § 44.35(a)

18

U.S. Department of Labor, Wage and Hour Division:
FLSA2006-12 (Opinion Letter)

17

U.S. Department of Labor, Wage and Hour Division:
FLSA Coverage: Employment Relationship, Statutory Exclusions,
Geographical Limits, ChapterlOb Section 03(f)
Wright, The Contract Clause of the Constitution (1938)

xiv

15-16
.39

PETITION FOR A WRIT OF CERTIORARI
Machiavelli Farrakhan Siberius, I, respectfully petitions the Court for a writ of certiorari to
review the judgement of the United States District Court for the Southern District of West
Virginia, at Charleston. The Memorandum Opinion and Order was affirmed by the United States
Court of Appeals for the Fourth Circuit.
OPINION AND ORDER BELOW
The Fourth Circuit’s opinion, 19-7400 (4th Cir. 2020), is unpublished and is provided in
Appendix C. The Memorandum Opinion and Order (2:18-cv-01125), appear in the Appendix to the
>

petition at Appendices A.
JURISDICTION
The United States Court of Appeals for the Fourth Circuit had denied the instant petition
for rehearing and rehearing en banc on September 29, 2020. Mr. Siberius invokes this Court’s
jurisdiction under 29 U.S Code § 213(a)(1) and 42 U.S. Code § 1983, having timely filed this
petition for writ of certiorari, in accordance with the COVID-19 Order List 589 U.S. deadline, of
150 days from the lower court judgment and denianee.
On June 5th, 2018, the petitioner, Machiavelli Farrakhan Siberius had filed a complaint
with the Circuit Court of Wood County, West Virginia. In motions filed on July 5th, 2018, the
defendant, American Public University System, Inc., with the consent of the other defendants,
Pressley Ridge and the West Virginia Department of Education, had removed the plaintiffs civil
action from state court into the federal district court pursuant to 28 U.S.C. §§ 1441 and 1446 [See
ECF Nos. 1,2,3,4,5, and 6]. This Court has jurisdiction over the federal question in the plaintiffs
FLSA claim pursuant to 28 U.S.C. § 1331. American Public University System, Inc. had requested
that this Court exercise supplemental jurisdiction over the Plaintiffs state law claims under 28
U.S.C § 1367(a).
In Monell v. Dept. ofSoc. Servs., 436 U.S. 658, 690-691, 98 S. Ct. 2018, 2035-36, 56 L. Ed.
2d 611, 635 (1978). (holding that municipalities and local governments are considered “persons”
1

under Section 1983 when an official government policy or custom caused a constitutional
violation). SyL Pt. 4(b), “Similarly, extending absolute immunity to school boards would be
inconsistent with several instances in which Congress has refused to immunize school boards from
federal jurisdiction under § 1983.” Pp. 436 ILS. 696-699. In Board, of Curators, Univ. of Mo. v.
Horowitz, 435 U. S. 78, 91-92 (1978), we assumed, without deciding, that federal courts can review
an academic decision of a public educational institution under a substantive due process standard.
Id. at 91-92.
CONSTITUTIONAL PROVISIONS, STATUTES AND
POLICIES AT ISSUE
United States Constitution, Article 1, Section 10, Clause 1
“No State shall enter into any Treaty, Alliance, or Confederation; grant Letters of
Marque and Reprisal; coin Money; emit Bills of Credit; make any Thing but gold and silver
Coin a Tender in Payment of Debts; pass any Bill of Attainder, ex post facto Law, or Law
impairing the Obligation of Contracts, or grant any Title of Nobility.”
First Amendment of the United States Constitution
“Congress shall make no law respecting an establishment of religion, or prohibiting
the free exercise thereof or abridging the freedom of speech, or of the press; or the right of
people peaceably to assemble, and to petition the Government for a redress of grievances.”
Thirteenth Amendment, Section 1 of the United States Constitution
“Neither slavery nor involuntary servitude, except as a punishment for crime
whereof the party shall have been duly convicted, shall exist within the United States, or
any place subject to their jurisdiction.”
Fourteenth Amendment, Section 1 of the United States Constitution
“All persons born or naturalized in the United States, and subject to the jurisdiction
thereof, are citizens of the United States and of the State wherein they reside. No State
shall make or enforce any law which shall abridge the privileges or immunities of citizens of
the United States; nor shall any State deprive any person of life, liberty, or property,
without due process of law; nor deny to any person within its jurisdiction the equal
protection of the laws.”
29 CFR § 541.303(c)
“(c) The possession of an elementary or secondary teacher’s certificate provides a
clear means of identifying the individuals contemplated as being within the scope of the
exemption for teaching professionals. Teachers who possess a teaching certificate qualify
for the exemption regardless of the terminology (e.g., permanent, conditional, standard,
provisional, temporary, emergency, or unlimited) used by the State to refer to different
kinds of certificates. However, private schools and public schools are not uniform in
2

requiring a certificate for employment as an elementary or secondary school teacher, and a
teacher’s certificate is not generally necessary for employment in institutions of higher
education or other educational establishments. Therefore, a teacher who is not certified
may be considered for exemption, provided that such individual is employed as a teacher by
the employing school or school system.”
29 CFR § 541.602(1)
“(1) Subject to the exceptions provided in paragraph (b) of this section, an exempt
employee must receive the full salary for any week in which the employee performs any
work without regard to the number of days or hours worked. Exempt employees need not be
paid for any workweek in which they perform no work.”
20 U.S. Code § 1011a (a)(1) & (c)(3) (As amended 2008)
(a) Protection of rights
“(1) It is the sense of Congress that no student attending an institution of higher
education on a full- or part-time basis should, on the basis of participation in protected
speech or protected association, be excluded from participation in, be denied the benefits of,
or be subjected to discrimination or official sanction under any education program, activity,
or division of the institution directly or indirectly receiving financial assistance under this
chapter, whether or not such program, activity, or division is sponsored or officially
sanctioned by the institution.”
(3) Protected speech
‘The term “protected speech” means speech that is protected under the first and
14th amendments to the Constitution, or would be protected if the institution of higher
education involved were subject to those amendments.”
29 U.S. Code § 213(a)(1) (As amended 2018)
“(a) Minimum wage and maximum hour requirements. The provisions of sections
206 (except subsection (d) in the case of paragraph (1) of this subsection) and 207 of this
title shall not apply with respect to—
“(1) any employee employed in a bona fide executive, administrative, or professional
capacity (including any employee employed in the capacity of academic administrative
personnel or teacher in elementary or secondary schools), or in the capacity of outside
salesman (as such terms are defined and delimited from time to time hy regulations of the
Secretary, subject to the provisions of subchapter II of chapter 5 of title 5, except that an
employee of a retail or service establishment shall not be excluded from the definition of
employee employed in a bona fide executive or administrative capacity because of the
number of hours in his workweek which he devotes to activities not directly or closely
related to the performance of executive or administrative activities, if less than 40 per
centum of his hours worked in the workweek are devoted to such activities); or”
42 U.S. Code § 1983 (As amended 1996)
“Every person who, under color of any statute, ordinance, regulation, custom, or
usage, of any State or Territory or the District of Columbia, subjects, or causes to be
subjected, any citizen of the United States or other person within the jurisdiction thereof to
the deprivation of any rights, privileges, or immunities secured by the Constitution and
3

laws, shall be liable to the party injured in an action at law, suit in equity, or other proper
proceeding for redress, except that in any action brought against a judicial officer for an act
or omission taken in such officer’s judicial capacity, injunctive relief shall not be granted
unless a declaratory decree was violated or declaratory relief was unavailable. For the
purposes of this section, any Act of Congress applicable exclusively to the District of
Columbia shall be considered to be a statute of the District of Columbia .”
W.Va. Code 18A-3-2 (As amended 2017)
“qualifications; certification of aliens.”
“Any professional educator, as defined in article one of this chapter, who is employed
within the public school system of the state shall hold a valid teaching certificate licensing
him or her to teach in the specializations and grade levels as shown on the certificate for
the period of his or her employment. If a teacher is employed in good faith on the
anticipation that he or she is eligible for a certificate and it is later determined that the
teacher was not eligible, the state Superintendent of Schools may authorize payment by the
county board of education to the teacher for a time not exceeding three school months or the
date of notification of his or her ineligibility, whichever shall occur first. All certificates
shall expire on June 30 of the last year of their validity irrespective of the date of issuance.”
STATEMENT OF THE CASE
A. Relevant Case History to FLSA & 1983.
Machiavelli Farrakhan Siberius, proceeding Pro se, appeals the Ruling and Order from the
September 13th, 2019, in the Memorandum Opinion and Order that denied a “Claim for Relief’ for
the Fair Labor Standards Act (“FLSA”), 29 U.S. Code § 213(a)(1) and 29 CFR § 541.303 and 29
CFR § 541.602. The District Judge’s decision was affirmed by a Panel of Circuit Judges on May 6,
2020. The thrust of Judge Joseph R. Goodwin’s argument is that Mr. Siberius was a student and
not an employee at Pressley Ridge. He used the following cases to reinforce the Court’s decision,
for students not to get paid, especially teacher candidates under any circumstances: Lisa Kerr v.
Gene Brett Kune, et al.. No. 15-1473; Lane v. Carolina Beauty Svs.. Inc.. No. 6:90-cv-00108, 1992
WL 228868, *4 (M.D.N.C. July 2, 1992). Walling v. Portland Terminal Co.. 330 U.S. 148, 152, 67 S.
Ct. 639, 641, 91 L. Ed. 809 (1947).
The petitioner was pursuing a teaching degree and a license in the State of West Virginia.
The APUS, Inc., universities were hosting and servicing the Post-Baccalaureate Teacher
Preparation Certification program; this was designed for secondary (5-Adult) teacher candidates
4

who wish to seek initial certification in secondary education in specific subject areas. The
broadness and diversity of labels used in a teacher program have meanings and legal founding
that is beyond the traditional student seeking credit, so to disregard “teacher candidates” as
knowledge seekers is out of context of the relationship they have with schools and students.
In the Amended Complaint, “the plaintiff Machiavelli Siberius [had] filed a civil action due
to circumstances that surround his status and titles, as a student, student teacher, teacher
candidate, teacher, and intern as designated by the defendants at various times in the history of
their association and relationship” (p. 4, lines 19-22). Siberius was not a student at Pressley Ridge,
a K-12 school that issues diplomas to wards of the state and juvenile delinquents. The
plaintiff/appellant was not a Student Worker receiving payments, reduced tuition, or boarding. In
addition, the appellant was not engaged in the activity of “Observation of Teacher(s),” as noted on
a timecard, due to that particular activity being completed months prior to the incident, at a rate
of 125 hours. [Informal Brief, 19-7400, pp. 1-2}.
The Student Teaching Handbook continues with “Student teaching places heavy
responsibility and time demands on candidates, far beyond what is normally experienced in
a regular semester course. Part-time employment often interferes with successful
performance. Student teaching responsibilities at school or on campus are never waived or
modified to accommodate the demands of outside employment. Therefore, part-time
employment during student teaching is strongly discouraged. Teacher Candidates who
must work are advised to limit their hours and to keep the Site Teacher and University
Supervisor fully informed of the arrangements” (p. 12).1 Therefore, if the plaintiff is
employed at any other profession, then the activity is said to interfere with the career of
teaching, interfere with the site placement employee position, and interfere with the
teacher candidacy position. The student teacher is requested to quit their job, to fulfill their
role as a teacher at a placement site (Amended Complaint, p. 23).
As said in the Amended Complaint: ‘The plaintiff was among the first people to arrive, or
arrived at the approximate scheduled time 7:30 AM, to start working at the facility, Pressley Ridge
at White Oak. He attended the school in person, every scheduled session on the school day

1 United States Supreme Court, Clackamas Gastroenterology Associates, P.C. v. Wells (No. 01-1435; 2003):
We are persuaded by the EEOC's focus on the common-law touchstone of control, see Skidmore v. Swift &
Co., 323 U. S. 134,140 (1944), and specifically by its submission that each of the following six factors:
"Whether and, if so, to what extent the organization supervises the individual’s work”
5

calendar, and never missed a day, attending from March 7, 2016 to June 3, 2016; this can be
illustrated through evidence of the “2015 School Calendar 2016” and the “Field Experience Hours
Log.” The work days were 7.5 hours long, often times 5 days a week, stretching a span of about 3
months, which eventually totaled 430.5 hours of scheduled work at Pressley Ridge.”
The [Petitioner] will append: furthermore, the teacher candidates are not trained to
instruct a class at the placement schooL The directives derived from authorities and supervisors
at the placement school are nothing beyond regular directives towards a teacher, expected to obey
orders and school policies. The teacher observation studies and course work is done prior to the
Culminating Clinical Experience. The student teaching handbook addresses teacher candidates
within the context of being employees while at the Site School. [Informal Brief 19-7400, pp. 9-10].
In addition, the student teaching handbook emphasizes under the heading, Suggested Activities
for the First Week(s), “Learn rules for teachers and follow them; learn rules for students and
enforce them” (Field Experience Handbook, 26).
In [Informal Brief, 19-7400, pp. 5-6] the District Judge had applied Lisa Kerr v. Gene Brett
Kune, et al., No. 15-1473,2 as a status quo example to support a ruling to dismiss a “FLSA” case 29
U.S. Code § 213(a)(1) for another teacher candidate, the Appellant, Machiavelli Siberius. In a
response to an amended plea from the defendants, the appellant noted Kerr as a bad model for this
particular case: “The Kerr case was about a student-teacher that had encountered numerous
problems in the teacher program at Marshall University and filed a court case. Firstly, Kerr does
not raise the W.Va. Code § 18A-3-2. Teacher Certification under statute, which is wages for three
months of work argument if student-teacher fails the course in the teacher certification program
after student-teaching.

2. The Lisa Kerr v. Gene Brett Kune, et aL, No. 15-1473 is a 4th District Court case was not dismissed on
grounds that Lisa Kerr was a student, as Judge Joseph R. Goodwin has explicitly explained and implied.
Actually, the civil action “FLSA” count was dismissed on grounds that the Teacher Candidate was suing the
Site Supervisor/Supervising Teacher instead of suing the Site Placement School. The school Kerr actually
worked at is the employer, which was located in Boone County School District.
6

Also, Lisa Kerr does not raise the argument for exemptions under FLSA being “$455 per
week is the least amount of a salary 29 CFR § 541.602 permitted to be paid to professional
employees and teachers under the minimum wage exemption” (e.g. 2019 exemptions $684). In
addition, Lisa Kerr had tried to sue the Site Teacher, Gene Brett Kuhn. The Site Teacher is not an
employer; the secondary school that Kerr had worked for was the employer, but she had not listed
the school in the lawsuit. As stated in the complaint, Footnote 19: “If Kuhn were an “employer”
under FLSA, he would be liable for any unpaid wages.” Furthermore, Kerr had resigned from the
student-teaching position, and she never was fired.
Machiavelli Siberius was in fact fired, which this does change the dynamic of the
relationship between West Virginia Department of Education, Pressley Ridge, and the
plaintiff/appellant. The power to fire the student-teacher, who follows all the laws, policies, and
Dept. Education legislative regulations, this illustrates that the defendants were acting as an
employer. And therefore, the school not only hosting a candidate from a teacher program with a set
expiration date, but retaining an employee. The WVDE Form 24 and Teaching Programs Site
Supervisor Agreement had been dated March 7th, 2016 to June 26th, 2016. The termination as
noted in the Amended Complaint, “the plaintiff was terminated from the teaching position that he
held at Pressley Ridge, for disclosing information to the police about a student being abused” (p.
34). [Informal Brief 5-7].
On June 9th, 2016, the university was starting to demand 14 to 16 weeks of student
teaching and particularly after the termination of the plaintiff had transpired, as noted in an
email from the School of Education, which is a department within the university. The decision to
enforce 14 to 16 weeks of student teaching experience was also considered after a Verification of
Degree Plan (Dated: December 16, 2015), to which was sent to the plaintiff and used as a basis for
negotiations with a county board and possibly a state agency. Dr. Spencer, the Faculty Director at
APUS, had rendered a decision in a university appeal that the plaintiff had not completed enough
field experience hours to receive a passing grade and teacher certification (Dated: January 27,
7

2017 by the university appeals department). The decision of Dr. Spencer was affirmed by Provost,
Dr. Vernon Smith, on May 23, 2017.
The defendants West Virginia Department of Education and Pressley Ridge had violated
the plaintiff’s First Amendment right, “Freedom of Speech,” by terminating the studentteacher/teacher candidate for disclosing information to the police. In W.Va. §49-2-803 and W.Va.
§49-6-109 and W.Va. §18A-3-l(g)(2)(B)(ii): “Requirements for federal and state accountability,
including the mandatory reporting of child abuse;” W.Va. §49-6-109 and W.Va. §49-2-803, specifies
that reporting directly to the police is an appropriate action, to take in the instance of child abuse.
“Pressley Ridge and WVDE violated the plaintiffs rights from the Fourteenth Amendment forbids
any State to "deprive any person of life, liberty, or property, without due process of law," or to
"deny to any person within its jurisdiction the equal protection of the laws" (pp. 52-53).
“Subsequently, Pressley Ridge and West Virginia Department of Education had denied the
plaintiff equal protection under state law. In addition, he was denied a due process in the wrongful
discharge from employer. In the process, the plaintiff was deprived of property through conversion
and tort interference” (Amended Complaint, pp. 103-104).
Machiavelli Farrakhan Sibcrius respectfully [sought] panel rehearing and rehearing era
banc, pursuant to Federal Rule of Appellate Procedure 35(b), of the Affirmed decision by
unpublished per curiam opinion issued in this appeal on May 6, 2020. The plaintiff, appellant pro
se,..believe[d] the panel decisions conflicts with the authoritative decisions of other United States
Courts of Appeals that have addressed the issue in-part, respectively, in the Eleventh Circuit,
Sixth Circuit, Fourth Circuit, and Second Circuit. The panel AGEE, DIAZ, and THACKER, Circuit
Judges affirmation is contrary to edicts found in the following cases: Schumann v. Collier
Anesthesia, P.A., 803 F.3d 1199 (11th Cir. 2015); Marshall v. Baptist Hospital, Inc., 473 F. Supp.
465 (M.D. Tenn. 1979); Reich v. Shiloh True Light Church of Christ, 895 F.Supp. 799, 819
(W.D.N.C. 1995); Winfield v. Babylon Beauty Sch. of Smithtown Inc., 89 F. Supp, 3d 556 (E.D.N.Y.
8

2015); Glatt et al. v. Fox Searchlight Pictures, Inc. et al. 13-4478-cv; 13-4481-cv (2nd Cir. 2016).
[Rehearing, 19-7400, p. 1].
ARGUMENT
I. FAIR LABOR STANDARDS ACT
A. Using Students as Employees and Students Transitioning into Employee Status.
Lisa Kerr’s “FLSA” claim was dismissed on the grounds that Kerr had sued the Site
Teacher, Gene Kuhn, instead of the field placement school used for clinical experience. The District
Judge, Joseph Goodwin argued that being a student was grounds and reasoning enough for
dismissing a student-teacher’s “FLSA” claim in the Siberius, et al. 19-7400 case. The maxim and
legal contraption used by the District Judge: ‘The fact that Kerr did not ultimately receive course
credit does not convert her truncated educational experience into unpaid labor” [ECF No. 48]. The
plaintiff is talking about abusing an internship program, to the extent that the university
guidelines of the program and state laws are being broken, to the extent that students become part
of a free labor system, due to students being fired and failed on false grounds.
The broadness and diversity of labels used in a teacher program have meanings and legal
founding that is beyond the traditional student seeking credit, so to disregard “teacher candidatesv
as knowledge seekers is out of context of the relationship they have with schools and students.
Machiavelli Siberius was in a Post-Baccalaureate Teacher Preparation Program, with degree
obtaining and full license capabilities from the program; hence while, he used a temporary teacher
work permit at Pressley Ridge, a State ran school. Often times referred to as “his status and titles,
as a student, student teacher, teacher candidate, teacher, and intern as designated by the
defendants at various times in the history of their association and relationship” (Amended
Complaint, p. 4). In Schumann v. Collier Anesthesia,, P.A., Case No: 2:12-cv-347-FtM-29CM (M.D.
Fla. Oct. 27, 2016): “Longer-term, intensive modem internships that are required to obtain
academic degrees and professional certification and licensure in a field are just too different from

9

the short training class offered by the railroad in Portland Terminal for the purpose of creating its
own labor pooL” Id. at 1211.
Solis v. Laurelbrook Sanitarium and School, 642 F.3d 518 (6th Cir. 2011) More
importantly, as noted above, determining employee status by reference to labels used by the
parties is inappropriate. Powell. 339 U.S. at 528-530, 70 S.Ct. at 772. And concluding that
students are not employees simply because they are students at a vocational school is precisely the
type of labeling courts must resist. Such an approach bypasses any real consideration of the
economic realities of the relationship and is antithetical to settled jurisprudence calling for
consideration of the totality of the circumstances of each case. Indeed, courts have in the past
determined that students in vocational training programs were nevertheless employees under the
FLSA. See, e.g., Reich v. Shiloh True Light Church of Christ, 895 F.Supp. 799, 819 (W.D.N.C.
1995) (holding that children enrolled in church-run vocational training program were employees).
affd per curiam, 85 F.3d 616 (4th Cir. 1996) (unpublished table decision); Baptist Hosp.. 473
F.Supp. at 477 (holding that X-ray technicians-in-training enrolled in two-year, accredited college
program were employees); see also id. at 468 n. Id. at 524
Reich v. Shiloh True Light Church of Christ, “The Court finds as a fact that the attribution
to church policy to not pay the minors under 16 is an attempt to label them students rather than
employees” (#76). “The minors under 16 were not paid because, even though they produced work,
the Defendants claim they were students.” Id. at #80 Tr 160-161. Winfield v. Babylon Beauty Sch.
of Smithtown Inc., 89 F. Supp. 3d 556 (E.D.N.Y. 2015) “First, while it may be that unlicensed
cosmetologists are not permitted to charge a fee for practicing cosmetology, the Defendants point
to no legal authority precluding students who are ostensibly supervised by licensed cosmetologists
from receiving a fee for their work. Indeed, under the Defendants’ interpretation, the Beauty
Schools themselves could not charge fees for cosmetology services because students performing
those services are not licensed. The Court finds such an interpretation of the NYGBL is overly
broad, unsupported by legal authority, and would lead to absurd results. Accordingly, the Court
10

does not find that New York law prohibits students from charging a fee for cosmetology services.”
Id. at 572.
Schumann v. Collier Anesthesia, PA., 803 F.3d 1199 (11th Cir. 2015) quoting Glatt, 791
F.3d at 384. Under the Second Circuit’s approach, “[n]o one factor is dispositive and every factor
need not point in the same direction for the court to conclude that the intern is not an employee....”
Id. Rather, courts must engage in a “weighing and balancing [of| all of the circumstances,”
including, where appropriate, other considerations not expressed in the seven factors. Id. The
Second Circuit has described this approach as “flexible” and “faithful to Portland Terminal,”
reasoning that “[n]othing in the Supreme Court’s decision suggests that any particular fact was
essential to its conclusion or that the facts on which it relied would have the same relevance in
every workplace.” Id. at 384—385.
In Reich v. Shiloh True Light Church of Christ, “we agree with the Court below that on the
undisputed facts the plaintiffs were employees of defendants within the meaning of the Fair Labor
Standards Act, which defines “employ” as including “suffer or permit to work.” Sec. 3(g), 29
U.S.C.A. Sec. 203(g). The determinative factor is not the source of their compensation, but the fact
that they render services which are necessary to the proper running of the defendant’s station,
that they are hired or selected by defendants and permitted by them to render these services, that
they are subject to the general supervision and control of defendants in rendering the services and
that the defendants have the power to discharge them.” Id. at 817. Schumann v. Collier
Anesthesia, P.A, “The overarching question on summary judgment is whether, after consideration
of the seven Glatt factors and others relevant to the specific case, the court is convinced there
exists no genuine issue of material fact bearing on whether the internship i) provided students
with a sound education and ii) exploited the students’ free labor.” Id. at 42-43.
Winfield v. Babylon Beauty Sch. ofSmithtown Inc., “In the corporate context, courts look to
whether the individual: (1) “had the power to hire and fire the employees”; (2) “supervised and
controlled employee work schedules or conditions of employment”; (3) “determined the rate and
11

method of payment”; and (4) “maintained employment records.” Irizarry, 722 F.3d at 105 (2d
Cir.2013) (quoting Carter v. Dutchess Community College. 735 F.2d 8. 12 (2d Cir. 19841. at 5681. In
Siberius v. American Public University, et aL (19-7400), the “Informal Brief* and “Amended
Complaint” had thoroughly addressed these issues.
B. The Good Faith Reliance and Abuses of Internship Programs.
Machiavelli Siberius being wrongfully discharged from the placement site of field
experience is an abuse and exploitation of the student-teacher and training program for teachers.
The plaintiff was terminated from Pressley Ridge for reporting child abuse to law-enforcement.
The particular illegality is specified in the university’s policy handbook for the teacher program
and state laws that pertain to teacher candidates in West Virginia; accordingly, a clause of
mandatory reporting of child abuse in respect to the laws, university policy/contract, occupational
duty, and professional guidelines for student-teachers. “The plaintiff was wrongfully discharged
from the facility as West Virginia Code §55-7E-2 affirms, for exercising a protocol described in
W.Va. Code §49-6A-2 and the right under W.Va. §49-2-803. This further adheres to other
procedures involving law-enforcement and schools such as interagency cooperation under §49-6109.” Legislative Rule §126-162-3 to respond to instances of abuse and violence is imprinted inside
the Student Teaching Handbook that a Defendant provided.
Marshall v. Baptist Hospital, Inc., 473 F. Supp. 465 (M.D. Term. 1979). Good frith under 29
U.S.C. § 259 requires that an employer react to an administrative pronouncement as a reasonably
prudent person would react under similar circumstances. Kam Koon Wan v. E. E. Black, Ltd., 188
F.2d 558, 562 (9th Cir.), cert, denied, 342 U.S. 826, 72 S. Ct. 49, 96 L. Ed. 625 (1951). Thus, any
factors that would put an employer on notice that the ruling was not authoritative, or was
qualified or incomplete would put the employer on notice that his reliance was not made in good
frith. Burke v. Mesta Machine Co., 79 F. Supp. 588, 611 (W.D.Pa.1948). Id. at 478. Schumann v.
Collier Anesthesia, PA.., Case No: 2:12-cv-347-FtM-29CM (M.D. Fla. Oct. 27, 2016): “This case,
however, concerns a universal clinical-placement requirement necessary to obtain a generally
12

applicable advanced academic degree and professional certification and licensure in the field.” Id.
at 1203.
Schumann continued, “In applying the factors to ascertain the primary beneficiary of an
internship relationship, we caution that the proper resolution of a case may not necessarily be an
all-or-nothing determination. That is, we can envision a scenario where a portion of the student’s
efforts constitute a bona fide internship that primarily benefits the student, but the employer also
takes unfair advantage of the student’s need to complete the internship by making continuation of
the internship implicitly or explicitly contingent on the student’s performance of tasks or his
working of hours well beyond the bounds of what could fairly be expected to be a part of the
internship.” Id. at 1214-1215. Notably, a school could obtain free labor from student-teachers by
wrongfully discharging interns, not finishing essential program documents for them, therefore,
requiring the student to repeat a course, and contribute to a free labor system for school districts.
This includes the university extending teaching hours for Machiavelli Siberius, beyond the State
law requirements and the “Verification of Degree Plan.”
Taking unfair advantage of students and interns should wholly include making them
perform illegal acts that are contingent upon them passing a college course or continuing an
internship for a program. Therefore, the host of a student and intern has a responsibility to abide
by certain guidelines, so as not to create a free labor system by abusing the internship program or
students, and sabotaging career goals. And therefore, these abuses should include capricious,
illegal, and arbitrary activity that are not within the scope of the central profession or teaching
program. The responsible guidelines to be followed by the hosting employer of students, to avoid
abuse to a student from a free labor system, should include filling out the document named in
Schumann and other educational programs: “the clinical courses...summative semester
evaluations completed by the clinical instructor or coordinator.” Id. at 1204. Furthermore, the
Amended Complaint [ECF No. 29] specifies certain duties of the site placement school had not
followed that is contingent to hosting a teacher candidate, to include the defendants never
13

followed-up with a 3-way conference call, used the Exit Evaluation form, and other duties
neglected that would contribute to a free labor system rather than a teacher program, at no fault
of the student-teacher. In Schumann, “We think that the best way to do this is to focus on the
benefits to the student while still considering whether the manner in which the employer
implements the internship program takes unfair advantage of or is otherwise abusive towards the
student.” Id at 1211.
Marshall v. Baptist Hospital, Inc., 473 F. Supp. 465 (M.D. Tenn. 1979). “Technical
conformity with the criteria listed in the 10b 14 enforcement policy is not the equivalent of good
faith conformity, and where a hospital abuses a training program to the extent evident in this
case, the element of good faith required by 29 U.S.C. § 259 is lacking.” Id. at 479. “Simply stated,
the hospital exploited the training program, turning it to its own advantage. That its advantage
might in turn be to the advantage of the public does not justify violating the interests served by
the FLSA, which are also designed to promote the public good.” Id. at 477. There is a number of
ways the student can be abused “unfairly taken advantage of or otherwise abused,” which should
be taken into consideration in the totality of circumstances. Schumann v. Collier Anesthesia, PA
“Nevertheless, we recognize the potential for some employers to maximize their benefits at the
unfair expense and abuse of student interns. And that is a problem.” Id. at 1211.
Glatt et al. v. Fox Searchlight Pictures, Inc. et al. (13-4478-cv; 13-4481-cv) “Under the
primary beneficiary test we have set forth, courts must consider individual aspects of the intern’s
experience” Id. at 22. When properly designed, unpaid internship programs can greatly benefit
interns. For this reason, internships are widely supported by educators and by employers looking
to hire well- trained recent graduates. However, employers can also exploit unpaid interns by
using their free labor without providing them with an appreciable benefit in education or
experience. Recognizing this concern, all parties agree that there are circumstances in which
someone who is labeled an unpaid intern is actually an employee entitled to compensation under
the FLSA. Id. at 11.
14

C. The Defendant Not Record Keeping for a Student in the Workplace.
According to Joseph Garvey’s signed Affidavit, Pressley Ridge did not maintain any records
of the hours worked at the secondary school, by the plaintiff, Machiavelli Siberius. Similarly, in
Reich v. Shiloh True Light Church of Christ, ‘Defendants in this action and have been and are
employed in violation of the Fair Labor Standards Act, and the SVTP has employed oppressive
child labor, failed to pay the minimum wage, failed to keep required records in violation of the
FLSA.” Id. at 819. (See Winfield v. Babylon Beauty Sch. of Smithtown Inc.. 89 F. Supp.)
According to the U.S. Department of Labor 29 CFR §516.30(a) “With respect
to persons employed as learners, apprentices, messengers or full-time students employed outside
of their school hours in any retail or service establishment in agriculture, or in institutions of
higher education, or handicapped workers employed at special minimum hourly rates under
Special Certificates pursuant to section 14 of the Act, employers shall maintain and preserve
records containing the same information and data required with respect to other employees
employed in the same occupations.” Marshall v. Baptist Hospital, Inc., Nevertheless, it has
engaged in the course of conduct set forth in these findings. The defendant never sought advice
from the Department of Labor and as a matter of fact attempted to conceal the facts surrounding
its relationship with the trainees by refusing the Compliance Officer access to its records and other
information that he was entitled to inspect under section 11(a) of the Act, 29 U.S.C. § 211(a). Id. at
481; performing such clerical functions as filing and preparing records of procedures performed. Id.
at 472
“A similar policy [should] be followed where the students perform such tasks less frequently
but for a full day, with an arrangement to perform their academic work for such days at other
times. For example, the students may perform full-day cafeteria service four times per year. In
such cases, the time devoted to cafeteria work in the aggregate would be less than if the student
worked an hour per day. However, if there are other indicia of employment, or the students
normally devote more than an hour each day or equivalent to such work, the circumstances of the
15

arrangement should be reviewed carefully” [FLSA Coverage: Emnlovment Relationship. Statutory
Exclusions. Geographical T amits. Chapter 10b Section 03(f)].
D. The District Judge’s Faulty Misplacement of Displacement for Unlicensed Teachers.
As noted in the Amended Complaint, essentially “Candidates can already be employed at a
school, receiving payments from the employer, maintaining both teacher candidacy and a teaching
position, because the duties are exactly the same! The amount of time dedicated to the classroom,
the level of responsibility, and the job positionfsj duties at the employer are the same as for a
teacher candidate as for a full-time paid employee that is a teacher at the facility; this is a reason
that a paid teacher would not need to vacate their position at a school, because they are capable of
fulfilling the duties of both roles simultaneously. In fact, the thing that does change are the job
titles, like terms such as Intern, Student Teacher, Teacher Candidate, which are used to designate
legal boundaries of the position that mean the individual is not frilly licensed to teach in the state.”
There shall not be displacement if a teacher program permits a teacher seeking certification to
keep their paid position, keeping a salary while performing the exact same duties as a teacher
candidate. Hence therefore, the teacher does not have teacher certification, yet are permitted to
teach for a salary, due to the lack of highly qualified teachers in the area. The main difference for a
teacher program is that a Site Supervisor steps into the classroom, to write a critique of the
teacher’s performance and suggests alternative ideas to teaching. (Informal Brief pp. 4-5)
According to the Student Teaching Handbook, “Candidates already employed as full-time K-12
teachers must also obtain approval from the Coordinator of Field Placement to maintain thencurrent employment while student teaching” (p. 12).
In According to W.Va. Code §18A-3-2, Teacher certification; required; expiration; “Any
professional educator, as defined in article one of this chapter, who is employed within the public
school system of the state shall hold a valid teaching certificate licensing him or her to teach in the
specializations and grade levels as shown on the certificate for the period of his or her
employment. If a teacher is employed in good faith on the anticipation that he or she is eligible for
16

a certificate and it is later determined that the teacher was not eligible, the state Superintendent
of Schools may authorize payment by the county hoard of education to the teacher for a time not
exceeding three school months or the date of notification of his or her ineligibility, whichever shall
occur first. All certificates shall expire on June 30 of the last year of their validity irrespective of
the date of issuance.” The appellant wants to note that this particular code would counteract part
six of the FLSA criterion for “trainees or students are not employees within the meaning of the
Act:” (U.S. Department of Labor, Wage and Hour Division: FLSA2006-12 [Opinion Letter]). There
is a clear expectation of money for teacher candidates that fail or obtain certification. See Winfield
v. Babylon Beauty Sch. of Smithtown Inc., 89 F. Supp. 3d 556 (E.D.N.Y. 2015)
As said in, 29 CFR, § 541.303(c) further emphasizes that certificates are not required for
payments as a teacher: “(c) The possession of an elementaiy or secondary teacher’s certificate
provides a clear means of identifying the individuals contemplated as being within the scope of the
exemption for teaching professionals. Teachers who possess a teaching certificate qualify for the
exemption regardless of the terminology (e.g., permanent, conditional, standard, provisional,
temporary, emergency, or unlimited) used by the State to refer to different kinds of certificates.
However, private schools and public schools are not uniform in requiring a certificate for
employment as an elementary or secondary school teacher, and a teacher’s certificate is not
generally necessary for employment in institutions of higher education or other educational
establishments. Therefore, a teacher who is not certified may be considered for exemption,
provided that such individual is employed as a teacher by the employing school or school system.”
Reich v. Shiloh True Light Church of Christ, there is a "little bit of difference" between the
work activities on the job site between minors under and over 16 years, in that the ones under 16
are not as experienced as the ones over 16, according to Little...The Court finds as a fact that the
attribution to church policy to not pay the minors under 16 is an attempt to label them students
rather than employees (#75-76 Tr. 150-151). See Lehigh Valley Coal Co. v. Yensavage, 218 F. 547,
552-53 (2d Cir. 1914) (finding that a miner working for another miner was an employee, not an
17

independent contractor, of the coal company). See Burruss, 38 N.M. at 258, 31 P.2d at 265; see
also Larson, supra, § 44.35(a). Our opinions also suggest other factors such as (1) the right to
delegate the work or to hire and fire assistants.” Harger v. Structural Services, Inc. 916 P.2d 1324
(1996) 121 N.M. 657. The student-teachers and teacher candidates undergo all the hardships as a
fully licensed teacher, and are indistinguishable at times from one.
E. An Infringement Upon the Thirteenth Amendment to the U.S. Constitution.
The m a nnerism that the West Virginia Department of Education and American Public
University System, Inc. ran the teacher program in the integrated political, corporate, and illegal
colluding scheme of economics—to fail ‘student-teachers’ on false grounds—so they perform more
work for county and state board schools, free of charge.1 The student-teachers are pursuing a
property right and property “interest” in occupation, that is not obtainable through a fraudulently
rigged and defective teacher program; this gives way to a free labor system. This is a sophisticated
modern slavery, to make people work for free in exchange for a ‘false promise’ that one day they
will be paid or obtain a college degree.2 Machiavelli Siberius had performed the same exact duties,
encountered the same exact risks, as a licensed professional teacher.
In addition, in Siberius v. American Public Univers., the way the police reacted by not
intervening, and the fashion that the defendants tried to get the plaintiff to not report a crime to
the police; and nor did anyone with “knowledge and power” intervene as a property right and
property “interests” were damaged by the defendants; this is reminiscent of a broken Confederacy
and Ku Klux Klan ultimatum for the territory. While slavery is no longer in effect according to the

1 California Education Code, Section 44462. Salary payments for supervision of interns may be made out of
district funds and may be met by reducing proportionately the salaries paid interns. Under this
authorization no more than eight interns may be supervised by one staff member and the normal district
salary paid each intern may be reduced by as much as, but no more than, one-eighth to pay the salary of the
supervisor. In no event may an intern be paid less than the minimum salary required to be paid by the state
to a regularly certificated teacher. (Enacted by Stats. 1976, Ch. 1010.)
2 North Carolina General Statutes § 115C-269.30.(c) Salary and Benefits.—Teacher assistants shall continue
to receive their salary and benefits while interning in the same local school administrative unit where they
are employed as a teacher assistant.
18

United States Constitution, the territory is still projecting indifference toward a person, treating
him as a second-class citizen, and not letting him utilize law-enforcement agencies for the purpose
of safety for property, to execute contracts, or execute duties of an occupation.
II- 42 U.S. Code § 1983
A. Corporation’s Official and A Corporation Can Act “Under Color of State Law,” In A
State Separate from Its Headquarters. A Corporation Can Be the Citizen of Several
States.
In [ECF No. 48 at 9] Memorandum and Opinion by District Judge, Joseph R. Goodwin: “As
alleged in the Amended Complaint, Pressley Ridge is a private corporation that provides
residential treatment, educational, and foster care services, headquartered in Pittsburgh,
Pennsylvania. Thus, it was not acting under color of state law .”
In [ECF No. 29 at 13], the physical address that plaintiff, Machiavelli F. Siherius, was
working and student-teaching on a permit, is listed in the defendant’s profile in the complaint:
Pressley Ridge at White Oak, 2172 Volcano Road, Walker, WV 26180. All promises, professional
relationships and associations, or quasi-contracts, and incident of tort and civil action happened in
Wood County, West Virginia. In addition, explained in [ECF No. 29 at 14-16], the citizenship of the
Defendants according to 28 U.S.C. § 1369(c)(2) “a corporation is deemed to be a citizen of any
State, and a citizen or subject of any foreign state, in which it is incorporated or has its principal
place of business, and is deemed to be a resident of any State in which it is incorporated or licensed
to do business or is doing business.”
In 28 U.S.C. § 1332(c)(1) “A corporation shall be deemed to be a citizen of every State and
foreign state by which it has been incorporated and of the State or foreign state where it has its
principal place of business.. .”
28 U.S.C. § 1391(d) ‘Residency of Corporations in States With Multiple Districts.—
For purposes of venue under this chapter, in a State which has more than one judicial
district and in which a defendant that is a corporation is subject to personal jurisdiction at
the time an action is commenced, such corporation shall be deemed to reside in any district
in that State within which its contacts would be sufficient to subject it to personal
19

jurisdiction if that district were a separate State, and, if there is no such district, the
corporation shall be deemed to reside in the district within which it has the most significant
contacts...” (g) Multiparty, Multiforum Litigation.— “A civil action in which jurisdiction of
the district court is based upon section 1369 of this title may be brought in any district in
which any defendant resides or in which a substantial part of the accident giving rise to the
action took place.”
In [ECF No. 29 at 78], “Jacob Green, the Superintendent of OIEP [Office of Institutional
Education Programs at WVDE] had assured the plaintiff that he could complete the requirements
for the teacher program by student teaching at Pressley Ridge at White Oak. The entire field
experience was to be completed at the school, so the plaintiff could become a fully licensed teacher
(March 1, 2016). Lisa Hoskins, the Principal at Pressley Ridge had first affirmed the decision
(February 23, 2016) and reaffirmed the decision (March 4, 2016), to permit the plaintiff to work as
a student teacher, to complete licensing and program requirements for teaching.”
The plaintiff Machiavelli Siberius bad served more than 12 weeks and over 430 hours at
Pressley Ridge at White Oak, as a student-teacher, as permitted by the West Virginia Department
of Education, and approved by their OIEP school system for wards of the state and wards of the
court. As stated in Amended Complaint, [ECF No. 29 at 40] “Pressley Ridge and the West Virginia
Department of Education’s employees Tracy Lott and Lisa Hoskins notified the Plaintiff
Machiavelli Farrakhan Siberius that he was being terminated for ‘reporting an incident to the
police.’ The plaintiff under contract by American Public University System, Inc., and under West
Virginia Legislative Rule as a student teacher with a permit, and as a resident of West Virginia
and citizen that abides by West Virginia Code, in good faith had reported the incident that had
transpired at Pressley Ridge to the Wood County Sherriffs Department...There are strict
guidelines for reacting to the crime as one employed in a teacher position, which deems reporting
this act as absolutely necessaiy in licensing/certification guidelines.”
The principal acknowledged that the termination would he followed up with a written
document, as requested by the plaintiff; this request was never fulfilled. In addition, Lisa Hoskins
had claimed that there was going to be a meeting between a Dean of APUS and herself. No
20

verification has been received by the plaintiff of this meeting taking place. Dr. Kathleen Tate of
APUS had contacted the plaintiff to verify a termination and order him not to contact Pressley
Ridge, “Hello, Adam, and Dr. Butler. Please note that Adam3 is not allowed to return to the
campus at Pressley Ridge White Oak. Adam, please do not return to or contact the campus at this
time” (Dated: 6/6/2016). The plaintiff was wrongfully discharged from Pressley Ridge, which was
done the following workday from reporting a staff member to police, [ECF No. 29 at 33],
The Pressley Ridge at White Oak facility has since shutdown, and Headquarters is being
sought as responsible for a civil action. See Fed.Rule Civ.Proe. 25(d) and Fed.Rule App.Proc. 43.
MEMORANDUM OF LAW
When a governmental entity contracts with a private company (i.e., jail medical
contractor), the entity may still be liable for the company’s unconstitutional policies. See Robinson
v. Integrative Detention Health Services, No. 3:12-CV-20, (MJD. Ga. Mar. 28, 2014). When a county
delegates final policymaking authority to a private entity regarding inmate medical care, “the
county itself remains liable for any constitutional deprivations caused by the policies or customs of
the [private entity].” Id. at 26.
In Burton v. Wilmington Parking Authority, 365 U.S. 715 (1961). Supreme Court,
Syl. Pt. 2, “In view of all the circumstances of this case, including the facts that the
restaurant was physically and financially an integral part of a public building, built and
maintained with public funds, devoted to a public parking service, and owned and operated
by an agency of the State for public purposes, the State was a joint participant in the
operation of the restaurant, and its refusal to serve appellant violated the Equal Protection
Clause of the Fourteenth Amendment.” Pp. 365 U.S. 721-726. Supreme Court, Syl. Pt. 3,
-“When a State leases public property in the manner and for the purpose shown to have
been the case here, the proscriptions of...” Page 365 U.S. 716. “The Fourteenth Amendment
must be complied with by the lessee as certainly as though they were binding covenants
written into the agreement itself.” P. 365 U.S. 726.
The symbiotic relationship of State and private entity described in Adickes v. S.H. Kress &
Co, 398 U.S. 144, 150-152 (2nd Cir., 1970); Syl. Pt. 1: “a private party involved in such a conspiracy,
even though not an official of the State, can be liable under § 1983. Private persons, jointly

3 The p laintifl/petitioner was formally known as Adam Dotson.
21

engaged with state officials in the prohibited action, are acting ‘under color’ of law for purposes of
the statute. To act ‘under color’ of law does not require that the accused he an officer of the State.
It is enough that he is a willful participant in joint activity with the State or its agents,” United
States v. Price, 383 U.S. 787, 794 (1966).
In Paige v. Coyner, No. 09-3287, (6th Cir., 2010), (explaining that the “under color of state
law” requirement for § 1983 is the same as the “state action” requirement of the Fourteenth
Amendment). The Supreme Court in Blum described the residents’ suit as one that “seeks to hold
state officials liable for the actions of private parties” and ultimately concluded that the stateaction requirement was not satisfied. Blum, 457 U.S. at 1003, 102 S.Ct. 2777. It used three tests to
determine whether the actions of the nursing homes should be attributed to the state. First, where
“there is a sufficiently close nexus between the State and the challenged action of the regulated
entity [,].. .the action of the latter may be fairly treated as that of the State itself.” Id. at 1004, 102
S.Ct. 2777 (citation omitted). The nexus test assures that “constitutional standards are invoked
only when it can be said that the State is responsible for the specific conduct of which the plaintiff
complains.” Id at 278-279. Second, “a State normally can be held responsible for a private decision
only when it has exercised coercive power or has provided such significant encouragement, either
overt or covert, that the choice must in law be deemed to be that of the State.” Id. This is the socalled state-compulsion test. Finally, state action will likely be present if “the private entity has
exercised powers that are traditionally the exclusive prerogative of the State.” Id. at 1005, 102
S.Ct. 2777 (citation and internal quotation marks omitted). Id. at 279.
According to West Virginia Code § 18B-1-4, “All of the policies and affairs of the
state colleges and universities shall be determined, controlled, supervised and managed by
the West Virginia board of regents, who shall exercise and perform all such powers, duties
and authorities: Provided, That the standards for education of teachers and teacher
preparation programs at the state colleges and universities shall continue to be under the
general direction and control of the West Virginia Board of Education, and the West
Virginia Board of Education shall have sole authority to continue, as authorized by section
six, article two, chapter eighteen of this code, to enter into agreements with county boards
of education for the use of the public schools to give prospective teachers teaching
experience.”
22

In Moose Lodge No. 107 v. Irvis, 407 U.S. 163 (1972), Supreme Court, Syl. Pt. 2, “The
operation of Pennsylvania’s regulatory scheme enforced by the state liquor board, except as
noted below, does not sufficiently implicate the State in appellant’s discriminatory guest
practices so as to make those practices “state action” within the purview of the Equal
Protection Clause, and there is no suggestion in the record that the State’s regulation of the
sale of liquor is intended overtly or covertly to encourage discrimination.” Burton v.
Wilmington Parking Authority, 365 U.S. 715, distinguished. Pp. 407 U.S. 171-177. Supreme
Court, Syl. Pt. 3, “Pennsylvania liquor board’s regulation requiring that “every club licensee
shall adhere to all the provisions of its constitution and bylaws” in effect placed state
sanctions behind the discriminatory guest practices that were enacted after the District
Court’s...” Page 407 U.S. 164. “...decision, and enforcement of that regulation should be
enjoined to the extent that it requires appellant to adhere to those practices.” Pp. 407 U.S.
177-179.
West v. Atkins, 487 U.S. 42 (1988). Held: A physician who is under contract with the State
to provide medical services to inmates at a state prison hospital on a part-time basis acts “under
color of state law,” within the meaning of § 1983, when he treats an inmate. Pp. 487 U.S. 48-57. (c)
Respondent’s conduct in treating petitioner is fairly attributable to the State. The State has an
obligation, under the Eighth Amendment. Page 487 U.S. 43 and state law, to provide adequate
medical care to those whom it has incarcerated. Estelle, supra, at 429 U.S. 104; Spicer v.
Williamson, 191 N.C. 487, 490, 132 S.E. 291, 293. “The State has delegated that function to
physicians such as respondent, and defers to their professional judgment. This analysis is not
altered by the fact that respondent was paid by contract, and was not on the state payroll, nor by
the fact that respondent was not required to work exclusively for the prison. It is the physician’s
function within the state system, not the precise terms of his employment, that is determinative.”
Pp. 487 U.S. 54-57.
B. A “Person” Can Be A Municipality Under Section 1983, A School Board Can Be Sued
Under Section 1983, and Various Capacities Sued Under 42 U.S.C. Section 1983.
In [ECF No. 48], the District Judge’s argument for a dismissal of 42 U.S.C. § 1983 included:
“Likewise, the WVDE, an agency of the State of West Virginia, is not a person with respect to
section 1983...In Will v. Michigan Dept, of State Police, 491 U.S. 58, 71 (1989), the Supreme Court
held that, neither a State, nor its officials acting in their official capacities, are “persons” under
23

section 1983” (p. 9). Yet in Siberius, the plaintiff’s party believes there is numerous cases and
specific details about the civil action that counters the District Judge’s beliefs about claims under
42 U.S.C. § 1983.
In [ECF No. 39 at 1-2], and Exhibits AA-AF, shows that the West Virginia Department of
Education and the West Virginia Board of Education are the same employer, organization, and
state entity. The defendant had argued that there was no connection between the two names
beyond the policymaking powers that were integrated into a section of government, all the while,
denying responsibility for teacher programs. The response in [ECF No. 41] had given numerous
examples that the WVDE and WVBE are the same entity to be sued, not immune in many
instances, and the names are used interchangeably. This can be further observed in West Virginia
Code § 18B-1-4, that the Department of Education is being sued for the same thing the Board is
supposed to be controlling, supervising and managing. The next case shows the proximity and
responsibility of the Department of Education to a teacher taking a college course for teacher
certification:
Opinion Issued July 12, 1993 Carol J. White vs. Department of Education (CC-93-82)
“Claimant represents self. Larry M. Bonham, Assistant Attorney General, for respondent. PER
CURIAM: This claim was submitted for decision based upon the allegations in the Notice of
Claim and the respondent’s Answer. Claimant seeks reimbursement of $293.00 for a course
taken to renew her teaching certificate for fiscal year 1991-92. The invoice for the course was
not processed for payment in the proper fiscal year; therefore, the claimant has not been paid.
The respondent admits the validity and amount of the claim and states that there were
sufficient funds expired in the appropriate fiscal year with which the claim could have been
paid. In view of the foregoing, the Court makes an award in the amount of $293.00. Award of
$293.00” (W.Va. Code § 14-2-25)______
________ ______ ____
___ ____ ___________
Office of Institutional Education Programs has changed its name to Office of Diversion and
Transition Programs; W.Va. Code §18-5-5 ‘It shall succeed and be subrogated to all the rights of
former magisterial and independent district boards and may institute and maintain any and all
actions, suits and proceedings now pending or which might have been brought and prosecuted in
the name of any former board for the recovery of any money or property, or damage to any

24

property due to or vested in the former board, and shall also be liable in its corporate capacity for
all claims legally existing against the board of which it is a successor.”
The defendants named in the suit had been a contentious point throughout the case history
of Siberius v. American Public University, etal,, SD W.Va., Charleston, 19-7400 (2:18-cv-01125).
Also, further joint tortfeasors, state entities, official capacities, and personal capacity suit, to be
sued was left to the District Court. Lisa Hoskins, the principal of Pressley Ridge at White Oak,
and simultaneously an employee at the West Virginia Department of Education is listed
throughout the complaint as a defendant subordinate to a claim in the civil action, and the
indemnifications against the state entity that claimed corporate and employee power in the State
of West Virginia.
MEMORANDUM OF LAW
In Carver v. Sheriff of Lasalle County, Illinois, 324 F.3d 947 (7th Cir. 2003). But in the
future counties must be named as parties and are entitled to remain in the suit, So that they may
veto improvident settlements proposed (at their expense) by the independently elected officers, per
curiam, Id. at 948, 507. In Monell v. Dept. ofSoe. Servs,, 436 U.S. 658, 690-691, 98 S. Ct. 2018,
2035—36, 56 L. Ed. 2d 611, 635 (1978). (holding that municipalities and local governments are
considered “persons” under Section 1983 when an official government policy or custom caused a
constitutional violation). SyL Pt. 4(b), “Similarly, extending absolute immunity to school boards
would be inconsistent with several instances in which Congress has refused to immunize school
boards from federal jurisdiction under § 1983.” Pp. 436 U.S. 696-699.
Hafer v. Melo et al., 502 U.S. 21, 112 S. Ct. 358 (1991). “After petitioner Hafer, the newly
elected auditor general of Pennsylvania, discharged respondents from their jobs in her office, they
sued her for, inter alia, monetary damages under 42 U.S.C. § 1983. The District Court dismissed
the latter claims under Will v. Michigan Dept, of State Police, 491 U.S. 58, 71, in which the Court
held that state officials “acting in their official capacities” are outside the class of “persons” subject
to liability under § 1983. In reversing this ruling, the Court of Appeals found that respondents
25

sought damages from Hafer in her personal capacity and held that, because she acted under color
of state law, respondents could maintain a § 1983 individual-capacity suit against her.” Syllabus,
Id.
Biggs v. Meadows, 66 F.3d 56 (4th Cir. 1995) ERVIN, Chief Judge:
“In this case, we address whether a plaintiff filing a complaint under 42 U.S.C. §(s)
1983 must plead expressly that state officials are being sued in their individual, rather
than official, capacities. Adopting the view accepted by most other circuits, we hold that a
litigant need not explicitly draw such a distinction. Instead, a court must look to the
substance of the complaint, the relief sought, and the course of proceedings to determine
the nature of a plaintiffs claims. Because the district court erroneously applied a
presumption that defendants are sued only in their official capacities unless a complaint
specifically states that a personal capacity suit is intended, we reverse the judgment of the
district court dismissing this action and remand the case for further proceedings.” Id. at 58.
“One factor indicating that suit has been filed in such a manner might be the
plaintiffs failure to allege that the defendant acted in accordance with a governmental
policy or custom, or the lack of indicia of such a policy or custom on the face of the
complaint. See Hill v. Shelander, 924 F.2d 1370, 1374 (7th Cir. 1991) (finding a personal
capacity claim where “the unconstitutional conduct alleged involves [the defendant’s]
individual actions and nowhere alludes to an official policy or custom that would shield him
from individual culpability”); see also Conner, 847 F.2d at 394 n. 8. Another indication that
suit has been brought against a state actor personally may be a plaintiffs request for
compensatory or punitive damages, since such relief is unavailable in official capacity suits.
Biggs v. Meadows, Id. at 61. See, e.g., Shabazz v. Coughlin, 852 F.2d 697, 700 (2d Cir.
1988); Pride v. Does, 997 F.2d 712, 715 (10th Cir. 1993); Price, 928 F.2d at 828; Gregory, 843
F.2d at 119-20; Hill, 924 F.2d at 1374.
In Kentucky v. Graham, 473 U.S. 159, 165-166 (1985): “As long as the government entity
receives notice and an opportunity to respond, an official-capacity suit is, in all respects other than
name, to be treated as a suit against the entity. Brandon, 469 U.S., at 471-472. It is not a suit
against the official personally, for the real party in interest is the entity. Thus, while an award of
damages against an official in his personal capacity can be executed only against the official’s
personal assets, a plaintiff seeking to recover on a damages judgment in an official-capacity suit
must look to the government entity itself.” In Kentucky v. Graham, 473 U.S. 159 (1985), the Court
sought to eliminate lingering confusion about the distinction between personal- and officialcapacity suits. We emphasized that official-capacity suits “generally represent only another way of
pleading an action against an entity of which an officer is an agent.” Id., at 165 Hafer seeks to
26

overcome the distinction between official- and personal-capacity suits by arguing that 1983
habihty turns not on the capacity in which state officials are sued, but on the capacity in which
they acted when injuring the plaintiff. [502 U.S. 21, 28].
Hafer v. Melo et al., 502 U.S. 21, 112 S. Ct. 358 (1991). “Moreover, § 1983’s
authorization of suits to redress deprivations of civil rights by persons acting “under color
of’ state law means that Hafer may be liable for discharging respondents precisely because
of her authority as auditor general. Her assertion that acts that are both within the
official’s authority and necessary to the performance of governmental functions (including
the employment decisions at issue) should be considered acts of the State that cannot give
rise to a personal-capacity action is unpersuasive. That contention ignores this Court’s
holding that § 1983 was enacted to enforce provisions of the Fourteenth Amendment
against those who carry a badge of a State and represent it in some capacity, whether they
act in accordance with their authority or misuse it.” Scheuer v. Rhodes, 416 U.S. 232, 243;
[502 U.S. 21, 22].
“Furthermore, Hafer’s theory would absolutely immunize state officials from
personal liability under § 1983 solely by virtue of the “official” nature of their acts, in
contravention of this Court’s immunity decisions. See, e. g., Scheuer, supra, pp.27-29.
“While Hafer’s power to hire and fire derived from her position as Auditor General, it said,
a suit for damages based on the exercise of this authority could be brought against Hafer in
her personal capacity,” [502 U.S. 21, 24-25]. Indeed, when an official sued in this capacity in
federal court dies or leaves office, her successor automatically assumes her role in the
litigation. See Fed.Rule Civ.Proc. 25(d)(1); Fed.Rule App.Proc. 43(c)(1); this Court’s Rule
35.3. Because the real party in interest in an official-capacity suit is the governmental
entity, and not the named official, “the entity’s ‘policy or custom’ must have played a part in
the violation of federal law.” Graham, supra, at 166 (quoting Monell, supra, at 694). For the
same reason, the only immunities available to the defendant in an official-capacity action
are those that the governmental entity possesses. 473 U.S., at 167. See Hafer v. Melo et al.,
502 U.S. 21, 26.
C. The Waiver of Eleventh Amendment Immunity.
Holding to [ECF Nos. 1,2,3,4,5, and 6]: In documents filed July 5, 2018, the defendant,
American Public University System, Inc. with the consent of the other defendants had removed the
plaintiffs civil action from state court into the federal district court pursuant to 28 U.S.C. §§ 1441
and 1446. The State of West Virginia had waived its Eleventh Amendment immunity, giving
federal jurisdiction over the case. In light of the foregoing, this Court has federal question
jurisdiction over the plaintiffs FLSA claim pursuant to 28 U.S.C. § 1331.
The Supreme Court’s recent decision in Will v. Michigan Department of State Police,__
U.S.__ , 109 S.Ct. 2304, 105 L.Ed.2d 45 (1989) (state officials sued in official capacity for damages
27

are absolutely immune from liability under the Eleventh Amendment), however, makes it
unnecessary for us to reach the merits of plaintiffs’ claim. Wells v. Brown, 891 F.2d 591 (6th Cir.
1989) Id. at 592. In Siberius, Case No. 2:18-ev-01125, the defendant’s voluntary appearance in
federal court and use of the removal tool, the West Virginia Department of Education had waived
its Eleventh Amendment immunity. This should be harshly noted as a counterexample or staple of
difference to other court cases, like Will v. Michigan Dept., that was removed by plaintiff or
directly filed by the plaintiff in federal court.
D. The Defendants Acted “Under Color of Law.”
Sandra ADICKES, Petitioner, v. S. H. KRESS & COMPANY. 398 U.S. 144, 90 S.Ct. 1598,
26 L.Ed.2d 142 (1970). In other legal usage, the word ‘color,’ as in ‘color of authority,’ ‘color of law,’
‘color of office,’ ‘color of title,’ and ‘colorable,’ suggests a kind of holding out and means ‘appearance,
semblance, or simulacrum,’ but not necessarily the reality. Id. at 123. Paige v. Coyner, 2010 U.S.
App. LEXIS 15239, 27 (6th Cir. 2010) (“[A] policy or custom does not have to be written law; it can
be created ‘by those whose edicts or acts may fairly be said to represent official policy.’”) (quoting
Monell v. Dept, of Social Servs., 436 U.S. 658, 694, 98 S. Ct. 2018, 2037—38, 56 L. Ed. 2d 611, 638
(1978)).
Bryant v. Chicago Board of Education, Ol-C-7895 (N.D. Ill. Apr. 19, 2002), “There
are three ways in which a municipality’s policy can violate § 1983: (1) if it has an express
policy that, when enforced, causes constitutional deprivation; (2) if there is a widespread
practice that, although not authorized by written law or express municipal policy, is so
permanent and well settled as to constitute custom or usage with the force of law; (3) if a
person with final policymaking authority causes a constitutional injury.” Id.--------In Limes-Miller v. City of Chicago, 773 F. Supp. 1130 (N.D. Ill. 1991) Limes-Miller does not
dispute that official prohibition. Instead she alleges that the complained-of actions were the result
of an informal policy or custom “the existence of an entrenched practice with the effective force of a
formal policy” (Gray v. Dane County, 854 F.2d 179, 183 (7th Cir.1988)). As Jones v. City of Chicago,
787 F.2d 200, 204 (7th Cir. 1986) put it: The word “custom” generally implies a habitual practice or
a course of action that characteristically is repeated under like circumstances. That practice must
28

J

be “persistent and widespread” to impute constructive knowledge to City policymakers (id.,
quoting Monell, 436 U.S. at 691, 98 S.Ct. at 2036). Id. at 1136.
Bd. of the Cnty. Comm’rs v. Brown, 520 U.S. 397, (1997) (noting that policymakers’
awareness of a pattern of unconstitutional conduct by employees, along with a failure to address
the problem, may demonstrate conscious disregard for a need to train, which would give rise to
municipal liability); See City of Canton v. Hariris, 489 U.S. 378, (1989). According to Oviatt by and
Through Waugh v. Pearce, 954 F.2d 1470 (9th Cir. 1992): ‘There is also no question that the
decision not to take any action to alleviate the problem of detecting missed arraignments
constitutes a policy for purposes of § 1983 municipal liability.” Id. at 1477. In accordance with
Hunter v. County of Sacramento, 652 F.3d 1225 (9th Cir. 2011), (1) The routine failure to follow a
general policy can itself constitute an actionable custom. (4) Failure to properly investigate, like
failure to discipline employees involved in incidents of excessive force, is evidence of and supports
a finding that not only was it accepted, but was customary. (11) Failure to properly investigate,
like failure to discipline employees involved in incidents of excessive force, is evidence of and
supports a finding excessive force was not only accepted but was customary. Id. at 1229.
Monroe v. Pape, 365 U.S. 167 (1961). Syl Pt. 2, (b) One of the purposes of this
legislation was to afford a federal right in federal courts because, by reason of prejudice,
passion, neglect, intolerance, or otherwise, state laws might not be enforced and the claims
of citizens to the enjoyment of rights, privileges and immunities guaranteed by the
Fourteenth Amendment might be denied by state agencies. Pp. 365 U.S. 174-180. (c) The
federal remedy is supplementary to the state remedy, and the state remedy need not be
sought and refused before the federal remedy is invoked. P. 365 U.S. 183. (d) Misuse of
power possessed_by virtue of state law and made possible onlyJbecause-the-wrongdoer is —
clothed with the authority of state law is action taken “under color of’ state law within the
meaning of § 1979. United States v. Classic, 313 U.S. 299; Screws v. United States, 325 U.S.
91. Pp. 365 U.S. 183-187..
Examining an Appeal Letter sent to APUS, Inc. [ECF No. 17; Exhibit 5], the plaintiff
reaffirms herein. On June 6, 2016, the plaintiff was terminated from a student teaching position at
Pressley Ridge. The grounds for the termination were for reporting a staff member to the Wood
County Sheriffs Department. The reason that the staff member was reported by the teacher

29

1

candidate was for child abuse, child endangerment, and battery. A staff member, an employee, and
agent of Pressley Ridge, named Kevin Croston, had forcefully tackled a female student by the
name of Madison. She claimed to the plaintiff that she posed no imminent threat. The student’s
teeth had been damaged, requiring dental work for missing/chipped teeth. Pressley Ridge’s
administrators and staff members had not pressed charges against the suspect, Kevin Croston,
who continued to work at the facility, working within the vicinity of the victim.
Noted in the amended complaint [ECF No. 29 at 32-33]: The police and sheriff’s department
did not have the opportunity to interview the victim. This facility had not permitted the student
the privilege to disclose information to the police. The plaintiff, at the time, a Teacher Candidate,
had reported the incident, due to the victim’s parents not having access to the facility, and the
phones were not reasonably accessible to students; notably, the student was a minor at the time of
the incident. The victim, Madison, was not permitted to leave campus to reach safety or sanctuary
from her attacker, or seek out help through the police department. The Sheriffs Office was not
permitted to contact the victim pending the investigation, according to Officer Pickens. The
suspect was contacted, but no arrest was made, due to the victim not being interviewed, or capable
of pressing charges, due to a legal blockade the facility had set up.
As said in [ECF No. 29 at 41] : Also, the plaintiff does want to mention the Field Experience
Handbook, which is supposed to guide the conduct of teacher candidates. Neither of the latter
handbooks enumerated have ordered, commanded, nor directed, and had not used as a clear rule of
thumb for the teacher candidate, the plaintiff to report incidents of child abuse to the Site
Teacher. Subsequently, he reported the incident to police. In fact, the plaintiff had a strong
indication that knowledge about the incident was already known by the Principal, Site Teacher,
and other staff members, yet either this was gross negligence or a complied and colluding faculty
that chose to conceal the incident.
Tracy Lott an employee of Pressley Ridge and an employee of the West Virginia
Department of Education, acting on their behalf as an agent and servant had affirmed the reason
30

for termination via electronic communication: “Adam, I regret to inform you that due to
circumstances beyond my control your student teaching as of today 6/6/2016. This is related to the
situation involving reporting an incident to the police and it broke the chain of command for
mandatory reporting. Mrs. Orr and myself were informed of this news this afternoon. I’m really
sorry for this inconvenience. Any questions about this should be addressed to Lisa Hoskins. Good
luck in your future indeavors!” The plaintiff had called into the school secretary, Sherry Matheny,
requesting the day off due to sickness. However, the plaintiff had missed the 3:18 PM email that
terminated him from the school. He returned 6/7/2016 at about 7:30 AM, which got him summoned
to the principal’s office, to discuss his firing due to contacting the police.
“The facility contained students that were Wards of the State and Wards of the Court. And
sometimes these Wards had been forcefully removed from a home by the police that were arresting
the parent(s) at the same time. While in custody of the state, wards should he afforded additional
protection against all threats, due to parents being often times incapable of interacting with their
kid or teenager. Instead of affording additional protection to wards, Pressley Ridge and the West
Virginia Department of Education, try to silence a personfs) that speaks out against abuse taking
place against a minor in the facility that is managed by them, by firing him from a teaching
position, as done to the plaintiff. Moreover, the defendants try to stop a police investigation
concerning the issue, according to Officer Pickens. This is a double standard and the oppressive
use of power against the victim and plaintiff by Pressley Ridge and the West Virginia Department
of Education.” fpp. 32-35].
Accordingly [ECF No. 29 at 53-54], American Public University System, Inc., had an
“Article of Agreement” and expressed or implied contract that stated the following: “Affirms that if
a conflict shall arise during the student’s practice teaching experience, that appropriate American
Public University personnel will be contacted to resolve said problem in an amenable manner,
with minimal trauma to students, the student teacher, and staff members.” However, APUS
breached of contract and deprived the plaintiff of property and property interests, like certification
31

through the teacher program, a fair Clinical Supervision grade and credentials, initial teacher and
certification licensing capabilities, and pursuit of a teaching career. APUS took no immediate
action to resolve pending problems from the 6/6/2016 and 6/7/2016 termination from student
teaching position and wrongful discharge from Pressley Ridge.
Again, the Superintendent had not released any inquiry on the incident, nor was he used to
negotiate or make final-policy making decisions concerning the teacher-candidate’s firing. In
addition, the Superintendent was not used in the negotiation or protocol of a firing or negotiation
in liaison with American Public University, during the transpiring of the incident. The principal,
Lisa Hoskins was the liaison used to negotiate and execute protocol, disclosing the decision to a
Dean at APUS, Inc., to terminate Machiavelli Siberius from the Pressley Ridge facility in Wood
County. In addition, the decision came with instructions to not return to the Pressley Ridge
campus or contact Pressley Ridge via telecommunication.
The West Virginia Department of Education that issued student-teaching permit to teach
in county and state schools had never inquired an investigation into the termination of the
plaintiff, or abuse of the aforementioned victim. The company and university American Public
University System, Inc., that hosted the teacher licensing program(s) had no formal meeting
concerning about ascribed incident, yet prevented Machiavelli Siberius from conferring a degree
with teacher licensing capabilities. The Defendant broke the Article of Agreement, and Handbooks,
using the opportunity to disenfranchise the plaintiff. The Wood County Sherriffs Office was
prevented from conducting an investigation at Pressley Ridge at White Oak, concerning the child
abuse incident that the plaintiff reported. The West Virginia Attorney General Office had refused
to appropriately respond to the incident, and even missed a deadline to respond to the complaint,
nor serve as a liaison between parties listed.
Said in [ECF No. 29 at 52], The Appellant’s pursuit of a teaching career is a property right
to which Siberius was deprived of from the breach of contract, and in accordance with Syllabus
Point Six, Garrison v. Thomas Memorial Hosp. W.Va. Supr. Court, Case. 90-C-2795. (1993). “An
32

individual's right to conduct a business or pursue an occupation is a property right. The type of
injury alleged in an action for tortious interference with business relationship is damage to one's
business or occupation. Therefore, the two-year statute of limitations governing actions for damage
to property, set forth under W.Va. Code, § 55-2-12 [1959], applies to an action for tortious
interference with business relationship” Id.
E. The First Amendment Right, “Freedom of Speech” Was Infringed Upon.
The defendants West Virginia Department of Education and Pressley Ridge had violated
the plaintiffs First Amendment right, “Freedom of Speech,” by terminating the studentteacher/teacher candidate for disclosing information to the police. In W.Va. $49-2-803 and W.Va.
§49-6-109 and W.Va. §18A-3-l(g)(2)(B)(ii): “Requirements for federal and state accountability,
including the mandatory reporting of child abuse;” W.Va. §49-6-109 and W.Va. §49-2-803, specifies
that reporting directly to the police is an appropriate action, to take in the instance of child abuse.
In Tinker v. Des Moines Independent Community School District, 393 U.S. 503 (1969),
Justia, Annotation. “Since First Amendment protections extend to students in public schools,
educational authorities who want to censor speech will need to show that permitting the speech
would significantly interfere with the discipline needed for the school to function.” Syl Pt. 2, “First
Amendment rights are available to teachers and students, subject to application in fight of the
special characteristics of the school environment.” Pp. 506-507. Syl. Pt. 3, “A prohibition against
expression of opinion, without any evidence that the rule is necessary to avoid substantial
interference with school discipline or the rights of others, is not permissible under the First and
Fourteenth Amendments.” Pp. 507-514. See Pickering v. Board of Education, 391 U.S. 563 (1968);
Keyishian v. Board of Regents, 385 U.S. 589, 385 U.S. 605-606 (1967). See 20 U.S. Code § 1011a.
Hall v. Marion School District. No. 2, 860 F. Supp. 278 (D.S.C. 1993). “For the reasons
stated below, this court finds that the district’s actions in transferring and terminating Hall from
her teaching position violated her constitutional rights under the First Amendment of the United
States Constitution.” Id. at 281-282. Accordingly, the feet that the decision to transfer and
33

s

subsequently terminate Hall comprised a single incident does not preclude this decision from
constituting “official policy” for § 1983 purposes. Instead, if the “particular course of action” taken
was unconstitutional transferring and later discharging Hall because she exercised her First
Amendment rights the district is liable “fi]f the decision to adopt that particular course of action
[was] properly made by [the district’s] authorized decisionmakers.” Id. at 291. See Pembaur v. City
of Cincinnati, 475 U.S. (1986). In Nix v. Norman, 879 F.2d 429 (8th Cir. 1989). “See Sanders v. St.
Louis, 724 F.2d 665, 667 (8th Cir. 1983) (per curiam). “We find that, for the purposes of surviving a
motion to dismiss, Nix has stated a section 1983 claim for which relief against Norman may be
granted.” Id.
F. The Fourteenth Amendment Due Process Clause Was Violated by Defendants.
The defendants West Virginia Department of Education and Pressley Ridge had violated
the plaintiffs Fourteenth Amendment right(s), the “Due Process Clause” and “Equal Protection.”
The defendants did not let the plaintiff report an incident to the police, without retaliatory
practice, and coercive manipulation; and subsequently, terminating the plaintiff from the teachercandidate position at Pressley Ridge at White Oak. The plaintiff chose to raise an argument as an
employee and student-teacher at the facility.
Citing [ECF No. 41], and completely reiterating the same type of argument here in: the due
process rights violated by discharge from the West Virginia Department of Education and Pressley
Ridge facility, which those dismissal procedures in W.Va. Code S18A-2-8. S18A-2-2. S18A-2-7 were
not followed. “Noted on page 57, paragraph 122 of the Amended Complaint: “The wrongful
discharge was malicious [,] violating the due process of the plaintiff by not giving him a fair hearing
at the facility, Pressley Ridge at White Oak. He was terminated immediately by West Virginia
Department of Education and Pressley Ridge with no review of evidence, nor policy, or rules as a
procedure to answer properly for violations in an appropriate set timeframe.” Examining the
procedure for discharging employees by the WVBE through statute §18A-2-8:

34

Suspension and dismissal of school personnel by board; appeal, “(a) Notwithstanding
any other provisions of law, a board may suspend or dismiss any person in its employment
at any time for: Immorality, incompetency, cruelty, insubordination, intemperance, willful
neglect of duty, unsatisfactory performance, the conviction of a felony or a guilty plea or a
plea of nolo contendere to a felony charge.” W.Va. Code §18A-2 8 “(b) A charge of
unsatisfactory performance shall not be made except as the result of an employee
performance evaluation pursuant to section twelve of this article. The charges shall be
stated in writing served upon the employee within two days of presentation of the charges
to the board.” “(c) The affected employee shall be given an opportunity, within five days of
receiving the written notice, to request, in writing, a level three hearing and appeals
pursuant to the provisions of article two, chapter six-c of this code, except that dismissal for
the conviction of a felony or guilty plea or plea of nolo contendere to a felony charge is not
by itself a grounds for a grievance proceeding. An employee charged with the commission of
a felony may be reassigned to duties which do not involve direct interaction with pupils
pending final disposition of the charges.”
“Noted in the Amended Complaint page 84, paragraph 186, under IX Tortious Interference,
XI Conversion 4). 94), there was no hearing on rules, or to answer for malignant charges or
accusations brought forth as noted in the statute under part-c. The firing was done by the
Principal of Pressley Ridge at White Oak, Lisa Hoskins. The plaintiff had requested a letter from
her about the firing, as noted in an Appeal Letter to the university, yet the request was never
completed by the agent of the defendants. Tracy Lott had sent the plaintiff a letter on behalf of
Lisa Hoskins, and employers that acknowledged a termination, but there was no process for a
hearing on the allegations” (ECF No. 41, pp. 12-13).
In Goss v. Lopez, 419 U.S. 565 (1975), Justin. Annotation. “Due process provides a
property right for students in their education, so a hearing is required before they are
deprived of it.” SyL Pt. 1, “Students facing temporary suspension from a public school have
property and liberty interests that qualify for protection under the Due Process Clause of
the Fourteenth Amendment.” Pp. 419 U.S. 572-576. Syl. Pt. 2, “Due process requires, in
connection with a suspension of 10 days or less, that the student be given oral or written
notice of the charges against him and, if he denies them, an explanation of the evidence the
authorities have and an opportunity to present his version. Generally, notice and hearing
should precede the student’s removal from school, since the hearing may almost
immediately follow the misconduct, but if prior notice and hearing are not feasible, as
where the student’s presence endangers persons or property or threatens disruption of the
academic process, thus justifying immediate removal from school, the necessary notice and
hearing should follow as soon as practicable.” Pp. 419 U.S. 577-584.
In Larsen v. City of Beloit, No. 97-1831, (7th Cir. 1997): The Larsens bear the burden of
proving that a property interest entitled to the Fourteenth Amendment’s procedural protection
35

exists. Petru v. City of Berwyn, 872 F.2d 1359, 1361 (7th Cir. 1989). The Supreme Court has
pointed out that such property interests “may take many forms.” Board of Regents of State Colleges
v. Roth, 408 U.S. 564, 576, 92 S.Ct. 2701, 2708, 33 L.Ed.2d 548. Examples of property interests the
Court has found to give rise to a requirement of due process include welfare benefits under
statutory and administrative standards defining eligibility for them, Goldberg v. Kelly, 397 U.S.
254, 90 S.Ct. 1011, 25 L.Ed.2d 287. Roth, 408 U.S. at 577, 92 S.Ct. at 2709. In a companion case to
Roth, the Court stressed that this formulation meant that “property” interests subject to
procedural due process protection are not limited by a few rigid, technical forms. A person’s
interest in a benefit is a “property” interest for due process purposes if there are such rules or
mutually explicit understandings that support his claim of entitlement to the benefit and that he
may invoke at a hearing. Id.
Machiavelli Farrakhan Siberius, the plaintiff believes that the seat in the teacher program
at APUS was a “property” interest, the certification and graduation through the APUS teacher
program was a “property” interest, and the college course’s grading and credentials in Clinical
Supervision EDUC697 at APUS was a “property” interest. The initial teacher and certification for
a fully licensed teacher is a “property” interest at [the] West Virginia Department of Education.
Student Teaching at Pressley Ridge through a student teaching permit was a “property” interest.
The plaintiffs pursuit of a teaching career is a property right. In syllabus point 6, Garrison v.
Thomas Memorial Hosp. W.Va. Supr. Court, Case. 90-C-2795. (1993). “An individual’s right to
conduct a business or pursue an occupation is a property right. The type of injury alleged in an
action for tortious interference with business relationship is damage to one’s business or
occupation” [ECF No. 29 at 51-52, 91].
See Zinermon v. Burch, 494 U.S. 113, 139, 110 S. Ct. 975, 990, 108 L. Ed. 2d 100, 122
(1990) (holding that plaintiff had made a sufficient due process claim when it was shown that a
deprivation of his rights was foreseeable and pre-deprivation safeguards could have prevented the
harm suffered). In Siberius [ECF No. 29] “The defendants referred to the school Pressley Ridge as
36

a level-3 security facility. The students and teachers had a number of conflicts, so the police
getting involved was inevitable at times. There had been several police responses to Pressley
Ridge, as Officer Brett Pickens has stated and the Plaintiff has observed. The minors that are
students are wards of the court and wards of the state. A large number of students had been
placed at the facility, due to some type of police intervention. Therefore, the plaintiff contacting
and talking to the police about a conflict that happens at Pressley Ridge is a foreseeable event.”
Pp. 81-82.
Yarg v. Hardin, No. 93-2934, 37F.3D, 282 (7th Cir. 1994) ‘The crux of this case is whether
Officer Hardin’s failure to intervene deprived Yang of his liberty rights under the Due Process
Clause of the Fourteenth Amendment and his rights under the Fourth Amendment to be free from
unreasonable seizure.” “...Under certain circumstances a state actor’s failure to intervene renders
him or her culpable under § 1983. See, e.g., White v. Rockford, 592 F.2d 381, 383 (7th Cir. 1979)
(police officers liable for exposing children to danger by leaving them unattended in a car parked
on the highway after lawfully arresting their guardian); Byrd v. Brishke, 466 F.2d 6, 10 (7th
Cir. 1972)” Id. at 284-285. Lamaster v. Ind. Dep’t of Child Servs., 4:18-cv-00029-RLY-DML (S.D.
Ind. Mar. 20, 2019) quoting Windle v. City of Marion, Ind., 321 F.3d 658, 662 (7th Cir. 2003)
(finding no due process violation where police, who had knowledge of sexual relationship between
student and teacher, failed to intervene and protect student, reasoning the police “did nothing to
create a danger, nor did they do anything to make worse any danger [the student] already faced”).
Id. at 6
G. Defendants Violated Equal Protection Clause; Abridging Privileges and Immunities.
Machiavelli Siberius was not able to relay a mandatory report of child abuse to a law
enforcement agency with privileges and immunities as others of the state. The plaintiff was not
afforded Equal Protection as a citizen of the State of West Virginia, or employee, and a studentteacher of a University, or equal protection as a student-teacher under a Board permit to teach at
a school.
37

The Fourteenth Amendment declares that a state cannot make or enforce any law that
abridges the privileges or immunities of any citizen. Corfield v. Coryell, 6 Fed. Cas. 546 (No.
3,230)(C.C.E.D.Pa., 1823), “The citizens of each state shall be entitled to all the privileges and
immunities of citizens in the several states?” [Citizens should be] “equally protected by the laws of
the state against the aggressions of others, whether citizens or strangers.” Id. at 502-504. Saenz v.
Roe, 526 U.S. 489 (1999), Syl. Pt. l(c)(d), (c) ‘The right of newly arrived citizens to the same
privileges and immunities enjoyed by other citizens of their new State—the third aspect of the right
to travel—is at issue here. That right is protected by the new arrival’s status as both a state citizen
and a United States citizen, and it is plainly identified in the Fourteenth Amendment’s Privileges
or Immunities Clause, see Slaughter-House Cases, 16 Wall. 36, 80.”
That newly arrived citizens have both state and federal capacities adds special force to
their claim that they have the same rights as others who share their citizenship.” Pp. 12—14. (d)
“Since the right to travel embraces a citizen’s right to be treated equally in her new State of
residence, a discriminatory classification is itself a penalty...” at Id. Plyler v. Doe, 457 U.S. 202
(1982), Syl. Pt. (a), The illegal aliens who are plaintiffs in these cases challenging the statute may
claim the benefit of the Equal Protection Clause, which provides that no State shall ‘deny to a ny
person within its jurisdiction the equal protection of the laws.’...” Kotch v. Board of River Port Pilot
Comm 'rs, 330 U.S. 552 (1947), held, “considering the entirely unique institution of pilotage in the
fight of its history in Louisiana and elsewhere, the pilotage law as so administered does not violate
the equal protection clause of the Fourteenth Amendment.” Pp. 330 U. S. 553-564.
H. U.S. Constitution, Article 1, Section 10, Clause 1 Was Violated by Defendants.
West Virginia Department of Education had violated the Constitution of the United States,
article first, section tenth, due to the state entity interfering with a contract that the plaintiff was
abiding too, and acting on behalf thereof The plaintiff was terminated from Pressley Ridge for
reporting child abuse to law-enforcement. The particular illegality is specified in the university’s
policy handbook for the teacher program and state laws that pertain to teacher candidates in West
38

Virginia; accordingly, a clause of mandatory reporting of child abuse in respect to the laws,
university policy/contract, occupational duty, and professional guidelines for studentteachers... Legislative Rule §126-162-3, to respond to instances of abuse and violence as imprinted
inside the Field Experience Handbook that American Public University System, Inc., provided.
There appears to be little doubt among these jurisdictions that the student-university
relationship is contractual in nature and that the terms of the contract may be derived from a
student handbook, catalog, or other statement of university policy. See, e.g. Ross v. Creighton
Univ., 957 F.2d 410 (7th Cir. 1992); Doherty v. Southern College of Optometry, 862 F.2d 570 (6th
Cir. 1988); Corso v. Creighton Univ., 731 F.2d 529 (8th Cir. 1984); Mahavongsanan v. Hall, 529
F.2d 448 (5th Cir. 1976); Abbariao v. Hamline Univ. Sch. of Law, 258 N.W.2d 108 (Minn. 1977);
Bleicher v. University of Cincinnati College of Med., 604 N.E.2d 783 (Ohio Ct. App. 1992);
University of Texas Health Science Ctr. at Houston v. Babb, 646 S.W.2d 502 (Tex. Ct. App. 1982).
See University of Mississippi Medical Center v. Hughes, 765 So.2d 528 (Miss. 2000): —Hughes
contends that the University catalog constitutes a contract between the University and its
students. Id.
“Alexander Hamilton as to their rights. In an opinion which was undoubtedly known to the
Court when it decided Fletcher v. Peck, Hamilton characterized the repeal as contravening “the
first principles of natural justice and social policy,” especially so far as it was made “to the
prejudice ... of third persons — innocent of the alleged fraud or corruption;... moreover,” he
added, “the Constitution of the United States, article first, section tenth, declares that no State
shall pass a law impairing the obligations of contract. This must be equivalent to saying no State
shall pass a law revoking, invalidating, or altering a contract.” See Fletcher v. Peck. 10 U.S. (6 Cr)
87 (1810); Wright, The Contract Clause of the Constitution (1938), Alexander Hamilton’s Pamphlet
1796.
Allgeyer v. Louisiana, 165 U.S. 578 (1897), the liberty protected by the due process
guaranteed of the Fourteenth Amendment, included the right to make contracts, free of state
39

interference. See Trustees of Dartmouth Coll. v. Woodward, 17 U.S. 4 Wheat. 518 518 (1819). In
Lochnen v. New York, 198 U.S. 45 (1905), state interference with freedom of contract was justified
to protect the public health. However, Supreme Court determined that the right to freely contract
is a fundamental right under the Fourteenth Amendment. The Fourteenth Amendment’s “Due
Process Clause” prohibits states from depriving any person of life, liberty, or property without due
process of law.
CONCLUSION
For the foregoing reasons, Mr. Siberius respectfully requests that this Court grant the
petition for writ of certiorari. Petitioner requests that the case be remanded to the trial court in
accordance with the aforementioned arguments.

Respectfully submitted,

MACHIAVELLIF. SIBERIUS, Pro Se
P.O. Box 1162
Parkersburg, WV 26102
Telephone: (304) 210-6097
MFSiberius@hotmail.com

April 2, 2021

40

